   United States Department of Agriculture
   Office of Inspector General




Food and Nutrition Services'
Financial Statements for
Fiscal Years 2012 and 2011




                                             Audit Report 27401-0002-21
                                             November 2012
                          United States Department of Agriculture
                                 Office of Inspector General
                                  Washington, D.C. 20250


DATE:         November 8, 2012

AUDIT
NUMBER:       27401-0002-21

TO:           Audrey Rowe
              Administrator
              Food and Nutrition Service

ATTN:         David Burr
              Chief Financial Officer
              Deputy Administrator for Financial Management
              Food and Nutrition Service

FROM:         Gil H. Harden
              Assistant Inspector General
                for Audit

SUBJECT:      Food and Nutrition Service Financial Statements for
              Fiscal Years 2012 and 2011


This report presents the results of our audit of the Food and Nutrition Service’s financial
statements for the fiscal years ending September 30, 2012 and 2011. The report contains an
unqualified opinion on the financial statements, as well as the results of our assessment of the
Food and Nutrition Service’s internal controls over financial reporting and compliance with laws
and regulations.

Based on the information provided during the audit, we are making no further recommendations
within this report. We appreciate the courtesies and cooperation extended to us by members of
your staff during our audit fieldwork and subsequent discussion. If you have any questions
regarding this report, please contact me at (202) 720-6945 or have a member of your staff
contact Don Pfeil at (301) 504-2100.
Table of Contents

Executive Summary .................................................................................................1
Opinion on the Comparative Financial Statements .............................................2
Internal Control Over Financial Reporting ..........................................................3
Compliance and Other Procedures ........................................................................3
Responsibilities .........................................................................................................4
Abbreviations ...........................................................................................................7
Exhibit A: Financial Statements .............................................................................9
Food and Nutrition Service Financial Statements for Fiscal Years 
2012 and 2011 (Audit Report 27401-0002-21)  

Executive Summary
Purpose
Our audit objectives were to determine whether (1) the financial statements present fairly, in all
material respects, in accordance with accounting principles generally accepted in the United
States of America, the assets, liabilities, and net position, net cost, changes in net position, and
combined budgetary resources; (2) the internal control objectives over financial reporting were
met; and (3) the Food and Nutrition Service (FNS) complied with laws and regulations for those
transactions and events that could have a direct and material effect on the comparative financial
statements. We also determined whether the Management Discussion and Analysis (MD&A)
was materially consistent with the information in the comparative financial statements.

We conducted our audit at the FNS National Office in Alexandria, Virginia. We also performed
a site visit to the Federal Reserve Bank in Richmond, Virginia, and obtained data from all FNS
Regional Offices.


Results in Brief

In our opinion, FNS’ comparative financial statements for fiscal years 2012 and 2011, including
the accompanying notes, present fairly, in all material respects, the financial position of FNS, as
of September 30, 2012 and 2011, and its net costs, changes in net position, and budgetary
resources for the years then ended, in conformity with accounting principles generally accepted
in the United States of America.

In the section entitled “Internal Controls over Financial Reporting,” we report that although FNS
reported no material weaknesses in its FY 2012 Federal Managers Financial Integrity Act report,
it did report two recurring control deficiencies. One is part of a continuing Department-wide
material weakness on unliquidated obligations, which remains a control deficiency in FY 2012.
FNS also reported that it had a control deficiency related to the lack of testing of the
reimbursable cycle per a Department mandated assessment of the reimbursable agreements
business process cycle.

In the section entitled “Compliance and Other Procedures,” we report that FNS’ core financial
system is in substantial compliance with the Federal Financial Management Improvement Act of
1996. We did report that the agency was not in full compliance with the Improper Payments
Information Act of 2002 and the Improper Payments Elimination and Recovery Act of 2010.




                                                                AUDIT REPORT 27401-0002-21         1
Independent Auditor’s Report

Audrey Rowe
Administrator
Food and Nutrition Service

We have audited the accompanying balance sheets of the Food and Nutrition Service (FNS), as
of September 30, 2012 and 2011, and the related statements of net cost; changes in net position;
and the combined statements of budgetary resources (hereinafter referred to as the “comparative
financial statements”) for the fiscal years then ended. The objective of our audits was to express
an opinion on the fair presentation of these comparative financial statements. In connection with
our fiscal year 2012 audit, we also considered FNS’ internal control over financial reporting and
tested FNS’ compliance with certain provisions of applicable laws and regulations that could
have a direct and material effect on these comparative financial statements.
The following sections discuss our opinion on FNS’ comparative financial statements; our
consideration of FNS’ internal control over financial reporting; our test of FNS’ compliance with
certain provision of applicable laws and regulations; and management’s, as well as our
responsibilities.

We conducted our audits in accordance with standards generally accepted in the United States of
America (the standards applicable to financial audits are contained in Government Auditing
Standards issued by the Comptroller General of the United States), and the Office of
Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial
Audits, as amended. Those standards and OMB Bulletin No. 07-04, as amended, require that we
plan and perform the audits to obtain reasonable assurance that the financial statements are free
of material misstatement. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements. An audit also includes assessing the
accounting principles used and significant estimates made by management, as well as evaluating
the overall financial statement presentation. We believe our audits provide a reasonable basis for
our opinion.


Opinion on the Comparative Financial Statements

In our opinion, the comparative financial statements referred to above present fairly, in all
material respects, the financial position of FNS, as of September 30, 2012 and 2011, and its net
costs, changes in net position, and budgetary resources for the years then ended, in conformity
with accounting principles generally accepted in the United States of America.

U.S. generally accepted accounting principles require that the information in the Management’s
Discussion and Analysis (MD&A), Required Supplementary Stewardship Information, and
Other Accompanying Information be presented to supplement the basic financial statements.
Such information, although not a part of the basic general-purpose financial statements, is
required by the Federal Accounting Standards Advisory Board who considers it to be an essential

2    AUDIT REPORT 27401-0002-21
part of financial reporting for placing the basic general-purpose financial statements in an
appropriate operational, economic, or historical context. We have applied certain limited
procedures to the required supplementary information in accordance with auditing standards
generally accepted in the United States of America, which consisted inquiries of management
about the methods of preparing the information and comparing the information for consistency
with management’s responses to our inquiries, and other knowledge we obtained during our
audit of the basic general-purpose financial statements. We do not express an opinion or provide
any assurance on the information because the limited procedures do not provide us with
sufficient evidence to express an opinion or provide any assurance.

FNS made certain reclassifications to prior year amounts to conform to current year presentation
on the Combined Statement of Budgetary Resources. In accordance with new guidance effective
for fiscal year 2012, as discussed in Note 1, the Combined Statement of Budgetary Resources
was reclassified to better align with the new Standard Form 133, Report on Budget Execution
and Budgetary Resources.


Internal Control Over Financial Reporting

Our consideration of the internal controls over financial reporting was for the limited purposes
described in the Responsibilities section of this report and would not necessarily identify all
deficiencies in the internal control over financial reporting that might be significant deficiencies
or material weaknesses.

Significant deficiencies are deficiencies, or a combination of deficiencies, in internal control that
are less severe than a material weakness, yet important enough to merit attention by those
charged with governance. Material weaknesses are deficiencies or a combination of deficiencies
in internal control, such that there is a reasonable possibility that a material misstatement of the
comparative financial statements being audited will not be prevented, or detected and corrected
on a timely basis. Because of inherent limitations in any internal control, misstatements due to
error or fraud may occur and not be detected.

We did not identify any material weaknesses that were not disclosed in FNS’ Federal Managers’
Financial Integrity Act of 1982 (FMFIA) Report on Management Control. FNS asserted through
its FY 2012 FMFIA submission that although no material weaknesses were identified, it did
identify recurring control deficiencies. One is a Department-wide material weakness on
unliquidated obligations. A Corrective Action Plan to address this deficiency is in place and
scheduled for January 2013 completion. The second is a previously identified lack of policies
and procedures regarding reimbursable agreements. FNS provided documentation that verified
that FNS did complete and distribute the cycle procedures as stated in the FMFIA assurance
letter.

Compliance and Other Procedures

We performed tests of FNS’ compliance, as described in the Responsibilities section of this
report. Our test disclosed two instances of noncompliance with laws and regulations that are


                                                                AUDIT REPORT 27401-0002-21         3
required to be reported under Government Auditing Standards and OMB Circular A-136. We
found that FNS is not in full compliance with the Improper Payments Information Act (IPIA) of
2002 as amended by the Improper Payments Elimination and Recovery Act of 2010 (IPERA)
requirements regarding the design of program internal controls related to payments for all
programs susceptible to significant improper payments. FNS reported estimated improper
payments for the Special Nutrition Assistance Program (SNAP), the National School Lunch
Program (NSLP), the School Breakfast Program (SBP), and the Special Supplemental Nutrition
Program for Women, Infants, and Children (WIC). However, FNS has not reported an estimated
improper payment rate for Child and Adult Care Food Program (CACFP) meal claiming. FNS
has developed a pilot methodology to estimate meal claim errors with parent recall surveys. FNS
is currently assessing the feasibility of using this approach nation-wide. FNS has not established
a date for publishing the CACFP claiming error estimate.

OMB Circular A-136 requires that agencies report the amount of improper payments the agency
identified and recovered through other than payment recapture audits i.e. state audits. FNS has
not reported the amount of improper payments they have recovered for the SNAP, WIC,
CACFP, NSLP and SBP. FNS explains in section 4 of its MD&A that the current statute only
provides authority to recover improper payments identified through reviews, audits, or other
operational oversight activity. FNS further explains that an estimated recovery target amount for
the SNAP is not feasible because claim collections are tied to the ability of States to identify,
pursue and collect erroneous payments.

As required by OMB Bulletin 07-04, as amended, with respect to internal controls related to key
performance measures as determined by management and reported in the MD&A, we obtained
an understanding of the design of significant internal controls related to the existence and
completeness assertions and determined if they had been in placed in operation. Our procedures
were not designed to provide assurance on internal controls over reported performance measures.
Accordingly, we do not provide an opinion on such controls.

As further required by OMB Bulletin 07-04, as amended, we considered FNS’ internal controls
over Required Supplementary Stewardship Information (RSSI) by obtaining an understanding of
the internal controls, along with making a determination if those controls had been placed in
operation, assessing control risk, and performing tests of the controls. Our procedures were not
designed to provide assurance on internal controls over RSSI. Accordingly, we do not provide
an opinion on such controls.

Additionally, the results of our tests disclosed no instances in which FNS’ financial management
systems did not substantially comply with the Federal Financial Management Improvement Act.


Responsibilities

FNS’ management is responsible for (1) preparing the comparative financial statements in
conformity with accounting principles generally accepted in the United States of America; (2)
establishing, maintaining, and assessing internal control to provide reasonable assurance that the

4    AUDIT REPORT 27401-0002-21
broad control objectives of the FMFIA are met; (3) ensuring that FNS’ financial management
systems substantially comply with FFMIA requirements; and (4) complying with applicable laws
and regulations.

Auditor Responsibilities

Our responsibility is to express an opinion on the fiscal years 2012 and 2011 comparative
financial statements of the FNS based on our audits. We conducted our audits in accordance
with auditing standards generally accepted in the United States of America; the standards
applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and OMB Bulletin 07-04, Audit Requirements for
Federal Financial Statements, as amended. Those standards and OMB 07-04, as amended,
require that we plan and perform the audit to obtain reasonable assurance about whether the
comparative financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit
procedures that are appropriate in the circumstances, but not for the purpose of expressing an
opinion on the effectiveness of FNS’ internal control over financial reporting. An audit also
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements, assessing the accounting principles used and significant estimates made by
management, and evaluating the overall financial statement presentation. We believe that our
audits provide a reasonable basis for our opinion.

In planning and performing our audits, we considered FNS’ internal control over financial
reporting by obtaining an understanding of the design effectiveness of internal controls,
determining whether the internal controls had been placed in operation, assessing control risk,
and performing tests of controls in order to determine our auditing procedures for the purpose of
expressing our opinion on the comparative financial statements. We limited our internal control
testing to those controls necessary to achieve the objectives described in OMB Bulletin 07-04, as
amended and Government Auditing Standards. We did not test all internal controls as defined by
the FMFIA. The objective of our audit was not to provide an opinion on FNS’ internal control.
Consequently, we do not provide an opinion on internal control over financial reporting, nor on
FNS’ assertion on internal control included in its MD&A.

As part of obtaining reasonable assurance about whether the comparative financial statements are
free of material misstatement, we performed tests of FNS’ compliance with certain provisions of
laws and regulations, agreements, and Government-wide policy requirements, noncompliance
with which could have a direct and material effect on the determination of the comparative
financial statement amounts. We also obtained reasonable assurance that FNS complied with
certain provisions of other laws and regulations specified in OMB Bulletin 07-04, as amended,
including requirements referred to in the FFMIA, except for those that, in our judgment, were
clearly inconsequential. We limited our tests of compliance to provisions described in the
preceding sentences and did not test compliance with all laws and regulations applicable to FNS.
However, providing an opinion on compliance with laws and regulations was not an objective of
our audit and, accordingly, we do not express such an opinion.




                                                             AUDIT REPORT 27401-0002-21        5
This report is intended solely for the information of the management of USDA, OMB, the U.S.
Government Accountability Office and the U.S. Congress, and is not intended to be, and should
not be, used by anyone other than those specified parties.




Gil H. Harden
Assistant Inspector General
    for Audit,
November 6, 2012




6      AUDIT REPORT 27401-0002-21
Abbreviations
CACFP ........................ Child and Adult Care Food Program
FDCH .......................... Family Day Care Home
FFMIA ........................ Federal Financial Management Improvement Act
FMFIA ........................ Federal Manager’s Financial Integrity Act
FNS ............................. Food and Nutrition Service
FY ............................... Fiscal Year
IPIA ............................. Improper Payment Information Act of 2002
IPERA ......................... Improper Payment Elimination and Recovery Act of 2010
MD&A ........................ Management Discussion and Analysis
NSLP ........................... National School Lunch Program
OMB ........................... Office of Management and Budget
OIG ............................. Office of Inspector General
RSSI ............................ Required Supplementary Stewardship Information
SBP ............................. School Breakfast Program
SNAP .......................... Special Nutrition Assistance Program
USDA.......................... Department of Agriculture
WIC ............................. Special Supplemental Nutrition Program for Women Infants, and Children




                                                                       AUDIT REPORT 27401-0002-21    7
8   AUDIT REPORT 27401-0002-21
Exhibit A: Financial Statements




                            USDA
                   Food and Nutrition Service

                    Fiscal Years 2012 and 2011
                   FINANCIAL STATEMENTS

                          Prepared By
                   Food and Nutrition Service




                                         AUDIT REPORT 27401-0002-21   9
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                   NOTES TO THE FINANCIAL STATEMENTS
                                 (Amounts shown are in Millions except as noted)


             MANAGEMENT DISCUSSION AND ANALYSIS

SECTION 1: MISSION, ORGANIZATIONAL STRUCTURE AND PROGRAMS

The Food and Nutrition Service (FNS) is an agency within the U.S. Department of Agriculture (USDA).
FNS was established August 8, 1969, by Secretary's Memorandum No. 1659 and Supplement 1 pursuant
to the authority contained in 5 U.S.C. 301 and Reorganization Plan No. 2 of 1953.

FNS is the Federal agency responsible for managing the domestic nutrition assistance programs. Its
mission is to increase food security and reduce hunger in partnership with cooperating organizations by
providing children and low-income people access to food, a healthful diet, and nutrition education in a
manner that supports American agriculture and inspires public confidence.

The FNS annual appropriation for administrative funds includes a very small percentage of funds for the
administration of the Center for Nutrition Policy and Promotion (CNPP). CNPP links scientific research
to the nutrition needs of consumers through science-based dietary guidance, nutrition policy coordination,
and nutrition education. CNPP develops integrated nutrition research, education, and promotion
programs and provides science-based dietary guidance.

FNS FY 2012 Organization Chart




                                                Page 1 of 59
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                   NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)




Descriptions of FNS Programs:
Over the past half-century – beginning with the National School Lunch Program in 1946 – the Nation has
gradually built an array of nutrition assistance programs designed to help the most vulnerable populations
meet their food needs. Taken together, the current programs form a nationwide safety net supporting low-
income families and individuals in their efforts to escape food insecurity and hunger and achieve healthy,
nutritious diets. Currently, the programs administered by FNS touch the lives of one in five Americans
over the course of a year.

The nutrition assistance programs described below works both individually and in concert with one
another to improve the Nation’s nutrition and health by improving the diets of children and low-income
households.

•   Supplemental Nutrition Assistance Program (SNAP): Authorized by the Food and Nutrition Act of
    2008, SNAP serves as the primary source of nutrition assistance for over 43 million low-income
    people. It enables participants, about 49 percent of whom are children, to improve their diets by
    increasing food purchasing power using benefits that are redeemed at authorized retail grocery stores
    across the country. State agencies are responsible for the administration of the program according to
    national eligibility and benefit standards set by Federal law and regulations. Benefits are 100 percent
    Federally-financed, while administrative costs are shared between the Federal and State
    Governments.

    SNAP provides the basic nutrition assistance benefit for low-income people in the United States;
    other FNS programs supplement this program with benefits targeted to special populations, dietary
    needs and delivery settings. (Puerto Rico, the Commonwealth of the Northern Mariana Islands and
    American Samoa receive grant funds with which to provide food and nutrition assistance in lieu of
    SNAP.)

•   Food Distribution Program on Indian Reservations (FDPIR): FDPIR distributes USDA-purchased
    foods as an alternative to SNAP for Indian households on or near reservations. State agencies and
    Indian Tribal Organizations (ITOs) that operate the program are responsible for certifying recipient
    eligibility, nutrition education, local warehousing and transportation of food, distribution of food to
    recipient households, and program integrity. The Federal Government pays 100 percent of the cost of
    commodities distributed through the program, and cash payments for administrative expenses.

•   Child Nutrition Programs (CNP): The Child Nutrition Programs - National School Lunch (NSLP),
    School Breakfast (SBP), Special Milk (SMP), Child and Adult Care Food (CACFP), and Summer
    Food Service (SFSP) - provide reimbursement to State and local governments for nutritious meals
    and snacks served to almost 32 million children in schools, child care institutions, adult day care
    centers, and after school care programs. FNS provides cash and USDA purchased food on a per-meal
    basis to offset the cost of food service at the local level and a significant portion of State and local
    administrative expense, and provides training, technical assistance, and nutrition education.
    Payments are substantially higher for meals served free or at a reduced price to children from low-
    income families.



                                                 Page 2 of 59
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)

•   Special Supplemental Nutrition Program for Women, Infants and Children (WIC): WIC addresses the
    supplemental nutritional needs of at-risk, low-income pregnant, breastfeeding and postpartum
    women, infants and children up to five years of age. It provides participants monthly supplemental
    food packages targeted to their dietary needs, breastfeeding support to nursing mothers, nutrition
    education, and referrals to a range of health and social services – benefits that promote a healthy
    pregnancy for mothers and a healthy start for their children. Appropriated funds are provided to
    States for food packages and nutrition services and administration for the program; States operate the
    program pursuant to plans approved by FNS. WIC is augmented in some localities by the Farmers’
    Market Nutrition Program, funded within the Commodity Assistance Program account, and
    authorized by the WIC Farmers’ Market Nutrition Act of 1992, which provides fresh produce to WIC
    participants.

•   The Emergency Food Assistance Program (TEFAP): This program supports the emergency food
    organization network by distributing USDA-purchased food for use by emergency feeding
    organizations including soup kitchens, food recovery organizations, and food banks. TEFAP also
    provides administrative funds to defray costs associated with processing, repackaging, storage, and
    distribution of Federal and privately donated food. The allocation of both Federal food and
    administrative grants to States is based on a formula that considers the States’ unemployment levels
    and the number of persons with income below the poverty level.

•   The Commodity Supplemental Food Program (CSFP): This program provides foods purchased by
    USDA to low-income infants and children up to age six, low-income pregnant and postpartum
    women, and to low-income senior citizens. In recent years, there has been a shift towards low-
    income elderly in this program; in FY 2009, elderly participation comprised approximately 95 percent
    of total participation. Foods are distributed through State agencies to supplement food acquired by
    recipients from other sources. The CSFP is operated as a Federal/State partnership under agreements
    between FNS and State health care, agricultural or education agencies. In FY 2009, 32 States, the
    District of Columbia, and two Indian reservations operate CSFP. Beginning in 2010, seven new
    States were added to the program.

•   Senior Farmers’ Market Nutrition Program (SFMNP): This program provides coupons to low-
    income seniors that can be exchanged for fresh, nutritious, unprepared, locally grown fruits,
    vegetables and herbs at farmers’ market, roadside stands, and community-supported agriculture
    programs.

•   Pacific Island and Disaster Assistance: Pacific Island Assistance includes assistance to the nuclear-
    affected zones of the Republic of the Marshall Islands in the form of USDA purchased food, or cash-
    in-lieu of food, and administrative funds and is authorized under the Compact of Free Association
    Amendments Act of 2003, (P.L. 108-188). Disaster relief funds are provided for use in non-
    Presidentially declared disasters.

Federal nutrition assistance programs operate as partnerships between FNS and the State and local
organizations that interact directly with program participants. States voluntarily enter into agreements
with the Federal Government to operate programs according to Federal standards in exchange for
program funds that cover all benefit costs, and a significant portion of administrative expenses.

Under these agreements, FNS is responsible for implementing statutory requirements that set national
program standards for eligibility and benefits, providing Federal funding to State and local partners, and
monitoring and evaluating to make sure that program structures and policies are properly implemented

                                                 Page 3 of 59
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                   NOTES TO THE FINANCIAL STATEMENTS
                                 (Amounts shown are in Millions except as noted)

and effective in meeting program missions. State and local organizations are responsible for delivering
benefits efficiently, effectively, and in a manner consistent with national requirements.

FNS Staff:
The public servants of FNS are an important resource for advancing the key outcomes sought through the
nutrition assistance programs. The agency staff serves to ensure and leverage the effective use of the
other program appropriations.
 FNS staff is funded primarily out of the Nutrition Programs Administration account, which represents
approximately one-third of one percent of the total FNS budget. The agency employment level
represents less than two percent of the total employment within USDA and is similarly small in
proportion to the total State-level staff needed to operate the programs. The agency employs people from
a variety of disciplines, including policy and management analysts, nutritionists, computer and
communication experts, accountants, investigators, and program evaluators. Because of the small size of
the agency’s staff relative to the resources it manages, FNS has created clear and specific performance
measures and must focus its management efforts in a limited number of high-priority areas.
Program operations are managed through FNS’ seven regional offices and 24 field offices/satellite
locations. A regional administrator directs each regional office. These offices maintain direct contact
with State agencies that administer the FNS programs. The agency’s regional offices also conduct on-site
management reviews of State operations and monitor the 242,630 stores as of June 30, 2012 authorized to
redeem SNAP benefits.
As of September 30, 2012, there were approximately 1,367 full-time permanent employees in the agency.
There were 544 employees in the Washington headquarters office; and 823 in the field, which includes
seven regional offices; 21 field offices; two SNAP compliance offices and a computer support center.
The chart below displays staff year utilization.


                                                                2011            2012          2013
        Project                                                 Actual         Estimate     Requested
        Supplemental Nutrition Assistance Program                    125              166           166
        Child Nutrition Programs                                     168              176           176
        Commodity Assistance                                            2               2             2
        Supplemental Nutrition Program _WIC                            22              23            23
        Nutrition Programs Administration                          1,021              968           968
        Center for Nutrition Policy and Promotion                      32              32            32
        Total Available                                            1,370            1,367        1,367




                                                Page 4 of 59
                                   FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                           NOTES TO THE FINANCIAL STATEMENTS
                                          (Amounts shown are in Millions except as noted)


SECTION 2. PERFORMANCE GOALS, OBJECTIVES and
RESULTS
The FNS agency goals and objectives are fully integrated into USDA’s Strategic Goal 4 with three related
Department Strategic objectives. Each Department Strategic Objective has a key outcome and indicator,
as discussed below.

USDA Strategic      USDA Strategic               Programs that
                                                                           Key Outcomes                Key Indicators
    Goal                Objective                 Contribute 1
                  USDA Strategic
                                                                       Key Outcome 1:
                  Objective 4.1:             SNAP, CN, WIC,                                         Program Participation
                                                                       Reduce hunger and
                  Increase Access to         CAP, FDPIR, TEFAP                                      Rates
                                                                       improve nutrition.
                  Nutritious Food
USDA Goal 4:
                  USDA Strategic                                       Key Outcome 2:
Ensure That All
                  Objective 4.2:             SNAP, CN, WIC             Promote more healthful
of America’s                                                                                        Nutrition Guidance
                  Promote Healthy                                      eating and physical
Children Have                                                                                       Distribution Volume
                  Diet and Physical          CNPP 2                    activity across the
Access to Safe,
                  Activity Behaviors                                   Nation.
Nutritious, and
                  USDA Strategic
Balanced Meals                                                         Key Outcome 3:
                  Objective 4.3:
                                             SNAP, CN, WIC             Maintain a high level of     SNAP Payment
                  Protect Public Health
                                                                       integrity in the nutrition   Accuracy Rate
                  by Ensuring Food is
                                                                       assistance programs.
                  Safe




Strategic Goal 4: Ensure that All of America’s Children Have Access to Safe,
Nutritious, and Balanced Meals

Nutrition is the link between agriculture and the Nation’s health, and the Department made strong
progress in advancing our nutrition and health goal in 2012. USDA’s leadership of the Federal nutrition
assistance programs made a healthier diet available for millions of children and low-income families.
And the cutting-edge nutrition promotion efforts of the Center for Nutrition Policy and Promotion
harnessed interactive technologies to motivate all Americans to make positive dietary behavioral changes
consistent with the Dietary Guidelines for Americans and the Healthier US initiative. Key 2012
accomplishments include:

Promoting access to the Supplemental Nutrition Assistance Program (SNAP). SNAP is the Nation’s
   largest nutrition assistance program, serving 46.6 million people in June 2012. The latest information
   on the rate of participation among eligible people showed that in 2009, 72 percent of all who were
   eligible participated as compared with 54 percent in 2001.

Promoting Nutrition Education by Using the MyPlate Food Guidance System. MyPlate—a network
   of nutrition education tools that translates the Dietary Guidelines for Americans into understandable
   concepts for consumers—offers the American public an individualized approach to nutritional well-
   being and active living. ChooseMyPlate.gov’s web-based educational tools help Americans assess
   and personalize their diet and physical activity plans. . The newest tool was the MyPlate for
   Preschoolers (ages 2 to 5 years old) to help parents use MyPlate to help their young children eat well,
1
  SNAP = Supplemental Nutrition Assistance Program (formerly the Food Stamp Program), CN=Child Nutrition (includes the
National School Lunch Program, the School Breakfast Program, and the Special Milk Program), WIC = Special Supplemental
Nutrition Program for Women, Infants & Children, CAP = Commodity Assistance Programs, FDPIR = Food Distribution
Program on Indian Reservations, TEFAP = The Emergency Food Assistance Program
2
  CNPP = Center for Nutrition Policy & Promotion (Partner agency to FNS within USDA)
                                                         Page 5 of 59
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)

    be active, and be healthy. Consumers continue to respond enthusiastically to this educational
    approach; thus, CNPP continues to develop new educational tools to promote nutrition education to
    specific population groups to help stem the trends in obesity and nutrition-related diseases. In 2011,
    transitions ocurred with the release of the 2010 Dietary Guidelines for Americans in January 2011
    and ChooseMy Plate.gov in May 2011.

Continuing to ensure that SNAP benefits are accurately issued. The SNAP payment accuracy rate for
   FY 2011, announced in June, 2012, was 96.20 percent, a new record high that reflects effective
   partnerships with State administering agencies, and extensive use of policy options to streamline
   program administration while improving access for working families.


In FY 2012, USDA continued to improve the quality of Americans’ diets through research-based nutrition
enhancements to the Nation’s food supply, and better knowledge and education to promote healthier food
choices. In FY 2012, USDA pursued national policies and programs to ensure that everyone has access to
a healthy diet regardless of income, and that the information is available to support and encourage good
nutrition choices.

USDA’s success in promoting public health through good nutrition and the effectiveness of its nutrition
assistance education programs relies heavily on research. The research provides critical knowledge of
what we need to eat to stay healthy and how that knowledge can be conveyed to the public in a manner
that leads to true changes in our diets. Research also supports development of new healthy and tasty food
products providing another avenue for helping consumers eat well.


Strategic Goal 4: Ensure that All of America’s Children Have Access to Safe,
Nutritious and Balanced Meals
Objective 4.1: Increase Access to Nutritious Foods
4.1.1 Participation levels for major Federal nutrition assistance programs SNAP.
       (Millions per month)

Overview

The Supplemental Nutrition Assistance Program (SNAP) is the foundation of America’s nutrition
assistance program system. SNAP provides benefits that can be used to purchase food at authorized
retailers for preparation and consumption at home. It makes resources that can be used for food available
to most households with little income. Benefit levels are based on the Thrifty Food Plan, a representative
healthful and minimal cost meal plan that shows how a nutritious diet may be achieved with limited
resources. The amount received by a household depends on their income, expenses, and household size.




                                                 Page 6 of 59
                                                 FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                                      NOTES TO THE FINANCIAL STATEMENTS
                                                    (Amounts shown are in Millions except as noted)



            Analysis of Results
            In FY 2012, the Department and its program delivery partners sustained effective access to SNAP.
            Average monthly participation reached 46.3 million in 2012 (Oct 2011- May 2012), within the range
            (43.6 million-50.4 million) for the 2012 target of 47.1 million.

            Program participation increased by almost 5 percent during the first eight months of FY 2012 as
            compared to the same period in FY 2011. USDA’s efforts to support and encourage SNAP participation
            included:
            • Continued efforts with States to develop outreach strategies. Forty- six out of 53 State agencies – up
                from 42 in FY 2009 -- now have formal outreach plans or other documented outreach activity;
            • Supported innovative State practices to promote access by simplifying the application process. Thirty
                States use an Internet-based application filing system. A total of 47 States allow telephone interviews.
                A total of 30 States use call centers;
            • Provided numerous strategies to help States manage workloads because of increasing participation
                and decreasing State resources due to the economic downturn. These strategies include policy
                waivers; a workload management matrix tool; a program access toolkit; and encouragement of broad-
                based categorical eligibility (42 States) to improve access to applicants and simplify policies for State
                administration.

            USDA also estimates the number of people eligible for the program along with the rate at which eligible
            people are participating. The latest study shows that, in 2009, 72 percent of all persons eligible for SNAP
            participated. While the number of those eligible continued to grow rapidly in 2008, increasing by 5.5
            percent over the 2007 level, the number of participants increased by 7 percent. Also in 2009, participants
            received 91 percent of all benefits available if every eligible person participated. This number indicates
            that the program is effectively reaching those most in need.


 Annual Performance Goals, Indicators                2007       2008        2009          2010           2011                 Fiscal Year 2012
             and Trends                                                                                              Target      Actual        Result
4.1.1 Participation levels for the major Federal       26.5      28.4        33.5          40.3            44.3       47.1         46.3         Met
       nutrition assistance programs (millions
       per month): Supplemental Nutrition
       Assistance Program Avg.(Monthly)
       participation (millions)
              Rationale for Met Range: Thresholds for 4.1.1 reflect the margin of error in forecasts of future participation. For Supplemental Nutrition
              Assistance Program (SNAP) participation, results from 2 independent assessments suggest that predictions of the number of SNAP
              participants are accurate to within plus-or-minus 7.5 percent on average.
               For 2012, this percentage thus allows for actual performance that meets the target range of 43.6-50.4 million for SNAP.
              Data Assessment of Performance Measure 4.1.1
              SNAP participation data are drawn from USDA administrative records. State agency reports are certified accurate and submitted to
              regional offices. There, they are reviewed for completeness and consistency. If the data are acceptable, the regional analyst posts them to
              the National Data Bank (NDB) Preload System. NDB is a holding area for data review prior to release. Otherwise, regional-office
              personnel reject the report and the State agency is contacted. Data posted by regional personnel into NDB are reviewed at FNS. If data are
              reasonable and consistent with previous reports, they will be downloaded to NDB for public release. If not, the FNS works with regional
              offices and States to resolve problems and inconsistencies. This process of review and revision ensures that the data are as accurate and
              reliable as possible
              Completeness of Data— Final figures represent 12-month, fiscal year averages. Participation data are collected and validated monthly
              before being declared annual data. Reported estimates are based on data through May 31, 2012, as available September 2012.
              Reliability of Data— Participation-data reporting is used to support program financial operations. All of the data are used in published
              analyses, studies and reports. They also are used to support dialogue with and information requests from the Government Accountability


                                                                    Page 7 of 59
                                            FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                                 NOTES TO THE FINANCIAL STATEMENTS
                                               (Amounts shown are in Millions except as noted)


Annual Performance Goals, Indicators            2007       2008        2009         2010           2011                 Fiscal Year 2012
            and Trends                                                                                         Target     Actual        Result
          Office, the Office of Inspector General, and the Office of Management and Budget.
          Quality of Data— As described above, the data used to develop this measure are used widely for multiple purposes, both within and
          outside USDA. The measure itself is reported in stand-alone publications as an important, high-quality indicator of program performance.


        Challenges for the Future

        Studies and analyses show that one reason that SNAP-eligible people who do not participate are that they
        may not be aware of their eligibility. Efforts to improve access to and promote awareness of SNAP, and
        seek improvements in policy and operations that make applying easier are ongoing challenges.

        The quality of program delivery by third parties—hundreds of thousands of State and local Government
        workers and their cooperators—is critical to USDA’s efforts to reduce hunger and improve nutrition.
        Proper program administration, including timely determination of eligibility, is of special concern.

        4.1.2 Improve SNAP payment accuracy
        Overview

        Ensuring that SNAP and other Federal nutrition assistance programs are administered with integrity is
        central to USDA’s mission. Waste and abuse draw scarce resources away from those who need them the
        most. Just as importantly, the programs are ultimately not sustainable without public confidence that
        benefits go to those who qualify, are used appropriately, and achieve their intended purposes. The
        Department seeks to increase food security and reduce hunger in a manner that inspires public confidence
        that taxpayer dollars are used wisely.

        Designed to respond to economic conditions, participation in the program has recently grown and benefits
        have increased, yet USDA remains strongly committed to program integrity. The Department takes its
        stewardship responsibilities for tax payer dollars seriously through an established Quality Control (QC)
        system and long-standing support for payment accuracy initiatives. The Department continuously works
        to improve payment accuracy through partnerships with States, and regulatory and statutory requirements
        for a system that rewards exemplary program performance while holding low-performing States
        accountable. It also uses an early detection system to target States that may be experiencing a higher
        incidence of errors based on preliminary QC data. Actions then are taken by regional offices to address
        these situations in the individual States.

        Analysis of Results

        SNAP payment accuracy reached a record-high 96.20 percent in 2011, the latest for which data are
        available. The number reflects the excellent performance by State agencies in administering the program.
        This combined rate reflects 2.99 percent in overpayments and .81 percent in underpayments for a total of
        3.80 in erroneous payments.

        Forty-four States had a payment accuracy rate greater than 94 percent, including 26 States with rates
        greater than 96 percent. This is three less States with 94 percent accuracy and three more States with 96
        percent accuracy from the previous year.


                                                              Page 8 of 59
                                                   FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                                        NOTES TO THE FINANCIAL STATEMENTS
                                                       (Amounts shown are in Millions except as noted)




 Annual Performance Goals, Indicators                   2007       2008        2009          2010        2011                  Fiscal Year 2012
             and Trends                                                                                               Target       Actual       Result
4.1.2   Improve SNAP Payment Accuracy Rate             94.4%      94.3%       94.9%         96.19%       96.2%         96.2%         Not       Deferred
        Baseline: 2001 = 91.34%                                                                                                    Available
             FY 2012 data will be available in 2013.
             Rationale for Met Range: The 95.0 percent confidence interval around the estimate of payment accuracy is ±.20.
             • For 2012, this confidence level allows for actual performance that meets the target in the range 95.9 – 96.5 percent.
             Data Assessment of Performance Measure 4.1.2
             The Supplemental Nutrition Assistance Program (SNAP), formerly the Food Stamp Program, uses annual payment accuracy data from the
             Quality Control (QC) process to support SNAP management. The data are based upon statistically valid methodology. The QC process
             uses a systematic random sampling of SNAP participants to determine a combined payment error rate for each State. The combined error
             rate is composed of over-issuances and under-issuances of SNAP benefits. A regression formula is applied to the results of the reviews to
             calculate official error rates. State agencies review selected cases monthly to determine the accuracy of the eligibility and benefit-level
             determination. The process includes a client interview and verification of all elements of eligibility and the basis of issuance. Federal
             reviewers validate a sample of the State’s reviews by conducting a re-review. The process has proven to be a sound method of calculating
             reliable data.
             Completeness of Data—The most current data available for this measure are for FY 2011. The payment accuracy rate of 96.20 percent
             met the performance goal/measure target. FY 2012 performance will be deferred until next year’s report.
             Reliability of Data— QC data are valid and accepted by State SNAP agencies as a basis for performance-incentive payments and
             penalties. The U.S. Government Accountability Office and the Office of Inspector General also use it regularly.
             Quality of Data— As described above, the data used to develop this measure are used widely for multiple purposes, both within and
             outside USDA. The measure itself is frequently cited as an important, high-quality indicator of program performance.




          Challenges for the Future
          The most critical challenge impacting future success is continuing resource limitations for State agencies.
          State budgets have been and will continue to be extremely tight. This factor could hurt State performance
          in payment accuracy. USDA will continue to provide technical assistance and support to maintain
          payment accuracy in the context of this difficult program environment.



          4.1.3 Participation levels for the major Federal nutrition assistance programs
          (millions per day)
          Overview

          The National School Lunch Program (NSLP) and the School Breakfast Program (SBP) support schools in
          ensuring access to nutritious food for the children they serve. The programs provide per-meal
          reimbursement to State and local Governments for meals and snacks served. All meals must meet Federal
          nutrition standards to qualify for reimbursement.

          In FY 2011, NSLP serves lunches and snacks in more than 100,700 schools and residential child-care
          facilities. More than 66 percent of meals are served to low-income children for free or at reduced price.

          SBP helps school children start the day ready to learn by serving breakfast in more than 88,700 schools
          and residential child-care facilities. Nearly 84 percent of meals are served free or at reduced price to low-
          income children.



                                                                      Page 9 of 59
                                                 FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                                      NOTES TO THE FINANCIAL STATEMENTS
                                                     (Amounts shown are in Millions except as noted)




           Analysis of Results
           In FY 2012, USDA and its program delivery partners sustained effective access to school meals. The
           increased use of direct certification for free school meals for children enrolled in means-tested programs
           such as SNAP or the Temporary Assistance for Needy Families (TANF) program has helped to provide
           easy access to school meal benefits. During the 2009-10 school year, 82 percent of school districts used
           direct certification, up from 78 percent in the prior year. TANF provides financial assistance for children
           and their parents or relatives who are living with them.

           NSLP participation levels reached 32.0 million in FY 2012; within the Met range (30.4 million-33.6
           million) for the 2012 target of 32.0 million. Participation increased slightly from FY 2011, continuing the
           trend of increases in recent years. Average SBP participation levels reached 12.8 million in FY 2012;
           within the Met range (12.1 million – 13.3 million) for the 2012 target of 12.7 million. These numbers also
           continue a trend of increases during the last several years.

 Annual Performance Goals, Indicators                 2007       2008         2009          2010           2011                Fiscal Year 2012
             and Trends                                                                                                 Target       Actual        Result
4.1.3   Participation levels for the major Federal
       nutrition assistance programs (millions
       per day)
•   National School Lunch Program                      30.5        30.9        31.6          31.7           31.8           32.0         32.0          Met
•   School Breakfast Program                           10.1        10.6        11.0          11.7           12.1           12.7         12.8          Met
               Rationale for Met Range: Thresholds for 4.1.3 reflect the margin of error in forecasts of future participation, estimated at 5 percent for
               school meals programs. This reflects the pattern of variance between actual and target performance for both programs during the past 5
               years. For FY 2012, this percentage range allows for actual performance that meets the targets in the range of 30.4-33.6 million for the
               National School Lunch Program and 12.1-13.3 million for the School Breakfast Program.
              Data Assessment of Performance Measure 4.1.3
              School meals participation data are drawn from USDA administrative records. State agency reports are certified accurate and submitted to
              regional offices. There, they are reviewed for completeness and consistency. If the data are acceptable, the regional analyst posts them to
              the National Data Bank (NDB) Preload System. NDB is a holding area for data review prior to release. Otherwise, regional-office
              personnel reject the report and the State agency is contacted. Data posted by regional personnel into NDB are reviewed at USDA. If data
              are reasonable and consistent with previous reports, they will be downloaded to NDB for public release. If not, USDA works with regional
              offices and States to resolve problems and inconsistencies. This process of review and revision ensures that the data are as accurate and
              reliable as possible.
              Completeness of Data— Figures for NSLP and SBP are based on 9-month (school year) averages. Participation data are collected and
              validated monthly before being declared annual data. Reported estimates are based on data through May 31, 2012, as available September
              2012.
              Reliability of Data— Participation-data reporting is used to support program financial operations. All of the data are used in published
              analyses, studies and reports. They also are used to support dialogue with and information requests from the Government Accountability
              Office, the Office of Inspector General, and the Office of Management and Budget.
              Quality of Data— As described above, the data used to develop this measure are used widely for multiple purposes, both within and
              outside USDA. The measure itself is reported in stand-alone publications as an important, high-quality indicator of program performance.




                                                                   Page 10 of 59
                                                 FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                                      NOTES TO THE FINANCIAL STATEMENTS
                                                     (Amounts shown are in Millions except as noted)


           Challenges for the Future

           While almost all school children have access to Federally-subsidized school lunches, significantly fewer
           schools operate School Breakfast Programs. USDA will continue to pursue strategies to ensure that all
           students are able to start the day with a nutritious breakfast, at home or at school.

           As with other nutrition assistance programs, the Department relies on its partnerships with third parties—
           hundreds of thousands of State and local Government workers and their cooperators— to sustain effective
           school meals program delivery.

           4.1.4 Participation levels for the major Federal nutrition assistance programs
           (millions per month) WIC program average

           Overview

           The Special Supplemental Nutrition Program for Women, Infants and Children (WIC) is a critical
           component of the nutrition assistance safety net. WIC’s major objective is to address the nutrition needs
           of low-income pregnant, breastfeeding, and postpartum women, infants, and children up to 5 years of age
           who are found to be at nutritional risk.


           Analysis of Results

           In FY 2012, average monthly WIC participation was approximately 8.9 million participants; within the
           Met range (8.6 million-9.4 million) for the target of 9.0 million. USDA continued to meet its ongoing
           commitment to provide sufficient program resources to support participation for all eligible people who
           apply for benefits.

           The Department also estimates the number of people eligible for WIC and calculates the rate at which
           eligible people are participating. The latest study shows that, in 2007, WIC served an estimated 59
           percent of the population eligible for benefits. This figure reflects participation by more than 80 percent
           of eligible infants, 66 percent of eligible pregnant women, more than 85 percent of eligible breastfeeding
           women, and 71 percent of eligible postpartum women.


 Annual Performance Goals, Indicators                 2007       2008         2009          2010            2011                 Fiscal Year 2012
             and Trends
                                                                                                                        Target        Actual       Result
4.1.4   Participation levels for the major Federal     8.3        8.7          9.1           9.2             8.9           9.0          8.9          Met
        nutrition assistance programs (millions
        per month): WIC Program (average)
              Rationale for Met Range: Thresholds for 4.1.4 reflect the margin of error in forecast of future participation, estimated at 3 percent for the
              WIC program. This reflects the pattern of variance between actual and target performance over the past 5 years.
              For FY 2012, this percentage thus allows for actual performance that meets the target in the range of 8.6-9.4 million for WIC.
              Data Assessment of Performance Measure 4.1.4
              WIC participation data are drawn from USDA administrative records. State agency reports are certified accurate and submitted to regional
              offices. There, they are reviewed for completeness and consistency. If the data are acceptable, the regional analyst posts them to the
              National Data Bank (NDB) Preload System. NDB is a holding area for data review prior to release. Otherwise, regional-office personnel
              reject the report and the State agency is contacted. Data posted by regional personnel into NDB are reviewed at USDA. If data are

                                                                   Page 11 of 59
                                            FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                                 NOTES TO THE FINANCIAL STATEMENTS
                                               (Amounts shown are in Millions except as noted)


Annual Performance Goals, Indicators             2007       2008        2009          2010           2011               Fiscal Year 2012
            and Trends                                                                                           Target       Actual       Result
          reasonable and consistent with previous reports, they will be downloaded to NDB for public release. If not, USDA works with regional
          offices and States to resolve problems and inconsistencies. This process of review and revision ensures that the data are as accurate and
          reliable as possible.
          Completeness of Data— Figures represent 12-month, fiscal year averages. Participation data are collected and validated monthly
          before being declared annual data. Reported estimates are based on data through May 31, 2012, as available September 2012.
          Reliability of Data— Participation-data reporting is used to support program financial operations. All of the data are used in published
          analyses, studies and reports. They also are used to support dialogue with and information requests from the Government Accountability
          Office, the Office of Inspector General, and the Office of Management and Budget.
          Quality of Data—As described above, the data used to develop this measure are used widely for multiple purposes, both within and
          outside USDA. The measure itself is reported in stand-alone publications as an important, high-quality indicator of program performance.


        Challenges for the Future

        Ensuring that adequate, timely funding is available to USDA’s program partners to support participation
        among all eligible applicants is an ongoing challenge. The Department and its partners must continue to
        work together to manage funds carefully and maintain efficient operations to serve all those in need.

        Objective 4.2: Promote healthy diet and physical activity behavior
        4.2.1Application and usage level of nutritional guidance tools.

        Linking science-based information to the needs of consumers through effective translation is an important
        pillar in policy development and implementation. The Department designed, developed, and
        implemented the MyPlate food icon, which is supported by a multi-modal, comprehensive
        communications program to make the 2010 Dietary Guidelines for Americans available and operational
        for all Americans, including children) to achieve healthy diets and lifestyles. The ChooseMyPlate.gov
        website and its wealth of resources, including the dietary assessment online tool, SuperTracker, promote
        the personalized application of the Guidelines to empower all consumers to make better food choices
        balanced with adequate exercise. In FY 2012, the Department released the new SuperTracker and
        consumer materials, located at www.ChooseMyPlate.gov, to help Americans attain healthy diets and
        active lifestyles.



        Overview

        Good nutrition and regular physical activity are important throughout the life cycle and can help reduce
        the rate of overweight and obesity in the U.S. population, especially among the Nation’s children. Both
        good nutrition and physical activity are also essential to helping prevent diet-related chronic diseases,
        such as diabetes, cardiovascular disease, and high blood pressure. Thus, achieving and sustaining
        appropriate body weight across the lifespan is vital to maintaining good health and quality of life.


        The Department establishes the Dietary Guidelines for Americans jointly with the Department of Health
        and Human Services (DHHS) to form the basis of Federal nutrition policy, education, outreach, and of
        food assistance programs. (The Dietary Guidelines are available at www.dietaryguidelines.gov.) The
        Department uses electronic tools, print materials, and other resources to communicate the importance of
        healthy eating and physical activity to consumers. The MyPlate icon and guidance materials and tools
                                                              Page 12 of 59
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                   NOTES TO THE FINANCIAL STATEMENTS
                                 (Amounts shown are in Millions except as noted)

at www.ChooseMyPlate.gov are important means by which the Department helps empower the American
public with actionable information to make healthy food choices and to achieve healthy and active
lifestyles. The Department continues also to encourage “information multipliers”—community and
national strategic partners—to extend the reach and impact of nutrition guidance messages, both with
Federal nutrition assistance programs and with the general public.

The Department is committed to using Federal nutrition policy and information—both based on the most
recent, credible science—to encourage the U.S. population to develop and maintain healthy diets and
active lifestyles that benefit each individual, each family, and the nation. As the Secretary said at the
December 2011 release of the SuperTracker, “Overcoming the health and nutrition challenges we face as
a nation is critical and the SuperTracker provides consumers with an assortment of tools to do just that.
“This easy-to-use website [ChooseMyPlate.gov] will help Americans at all stages of life improve their
overall health and well-being as they input dietary and physical activity choices into the tool.

Other key FY 2012 accomplishments include the following:
   • The Department released the new SuperTracker located at www.ChooseMyPlate.gov. The
        SuperTracker consists of a suite of dietary assessment, weight management, and physical tracking
        tools designed to help Americans by empowering them with means to make healthier choices and
        develop a healthy dietary habits and lifestyles.
   • The Department implemented a communications calendar of selected messages, based on the
        2010 Dietary Guidelines for Americans, to encourage healthy food and dietary behaviors. The
        messages released in FY 2012 were “Enjoy your food but eat less,” “Make half your plate fruits
        and vegetables,” “Drink water instead of sugary drinks,” and “Make at least half your grains
        whole grains.”
   • The Department continues to build its Nutrition Evidence Library by conducting evidence-based
        systematic review to evaluate scientific evidence to answer precise nutrition policy and nutrition
        education questions or series of questions.
    • The USDA continues to collaborate with partners to increase all communication of guidance
        messages related to the diet and physical activity. The USDA/CNPP Nutrition Communicators
        Network provides an opportunity for different communities and different organizations to
        join together in helping promote the Dietary Guidelines for Americans. The Nutrition
        Communicators Network includes over 6,000 community partners and 100 strategic (national)
        partners.


Analysis of Results

In FY 2012, the application and usage level of nutrition guidance tools reached 6 billion pieces of
electronic and print materials distributed. The Department exceeded its goal of 3.5 to 4.5 billion pieces.
USDA continued to meet its commitment to link science-based information to the nutrition needs of
Americans across the lifecycle. The Department successfully reached Americans with print materials and
electronic tools; the Department used social media and partnerships, as well as ChooseMyPlate.gov,
nutritionevidencelibrary.gov, and the Food and Nutrition Information center to provide information that
consumers can use to improve their diets and maintain active lifestyles.




                                               Page 13 of 59
                                                FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                                      NOTES TO THE FINANCIAL STATEMENTS
                                                    (Amounts shown are in Millions except as noted)




 Annual Performance Goals, Indicators                2007       2008        2009          2010           2011                Fiscal Year 2012
             and Trends
                                                                                                                      Target       Actual       Result
4.2.1   Application and usage level of nutrition          2.6        3.2          3.5           1.7            1.7         4.0    6.6      Exceeded
        guidance tools(billions of pieces of
        nutrition guidance distributed) Baseline
        2006 = 1.5
               Rationale for Met Range: The precision of USDA’s tracking system and forecasting allows for determination of the degree to which the
               2012 target range of 3.5 to 4.5 billion is met. Thresholds reflect trends of usage levels at ChooseMyPlate.gov,
               www.nutritionevidencelibrary.gov, other USDA websites such as SNAP-ED Connection, as well as the distribution of MyPlate and
               Dietary Guidelines print materials.
              Data Assessment of Performance Measure 4.2.1
              Data on the application and usage level of nutrition guidance tools are drawn from electronic records associated with ChooseMyPlate.gov,
              nutritionevidencelibary.gov, the Food and Nutrition Information Center (FNIC) at the National Agricultural Library and from inventory
              records of print materials.
              Completeness of Data—Data related to ChooseMyPlate.gov are collected instantaneously, indicating the number of e-hits to the Web
              site and the number of registrations to the SuperTracker. For print materials, data from national headquarters represent counts of what was
              distributed among divisions of FNCS and by the FNIC.
              Reliability of Data—The electronic data are instantaneously recorded and the number of distributed print materials is tracked.
              Quality of Data—The data report on the use of information and tools at ChooseMyPlate.gov and nutritionevidencelibrary.gov. Because
              of the simultaneous recording of data, the Department is able to estimate accurately the degree to which consumers are using or requesting
              nutrition materials at ChooseMyPlate.gov, nutritionevidencelibary.gov, and other Department websites that provide materials related to the
              2010 Dietary Guidelines for Americans.




           Challenges for the Future

           Individuals and families make choices every day about what they will eat and drink and how physically
           active they will be. Today, Americans must make these choices within an environment that promotes
           overconsumption of calories and discourages physical activity. The ability of existing nutrition guidance
           and promotional materials to achieve behavior change remains challenging. Physical activity and other
           lifestyle issues also significantly impact body weight and health.

           Crafting understandable, science-based, consistent, and consumer-friendly nutrition messages and
           nutrition education programs in ways that promote positive behavioral change to help people make better
           food choices will continue to be challenging. The relationships between choices people make and their
           attitudes towards and knowledge of diet/health links are key factors that must be addressed. The data that
           can address this information gap, however, are limited. Work is planned to develop helpful metrics to
           measure the success of communications and promotion programs.




                                                                  Page 14 of 59
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                   NOTES TO THE FINANCIAL STATEMENTS
                                 (Amounts shown are in Millions except as noted)


SECTION 3. ANALYSIS OF SYSTEMS, CONTROLS, AND
LEGAL COMPLIANCE
The information in this section is consistent with the findings of the USDA OIG’s FY 2012 financial
statements audit report.

Federal Managers’ Financial Integrity Act (FMFIA) Assurance
Management is responsible for developing and maintaining internal controls to ensure the effectiveness of
operations, reliability of reporting, compliance with applicable laws and regulations and safeguarding of
assets. Internal control encompasses accounting and administrative controls. Such controls include
program, operational and administrative areas as well as accounting and financial management.

FNS has conducted its assessment of internal control and financial systems pursuant to Sections 2 and 4
of FMFIA, for the period ending September 30, 2012. Based on the results of this evaluation, FNS can
provide reasonable assurance that internal controls are operating effectively. For FY 2011, FNS had no
existing material weaknesses or significant deficiencies on which to report. No new material weaknesses
or significant deficiencies were identified for FY 2012.


Federal Financial Management Improvement Act (FFMIA)
Assurance
FNS has evaluated its financial management systems under FFMIA for the period ended September 30,
2012. Based on the result of our evaluation, the agency is in substantial compliance with the FFMIA for
the following sections:

        1.      Federal Financial Management System Requirements,
        2.      Applicable Federal Accounting Standards,
        3.      Standard General Ledger at the Transaction Level, and
        4.      Information Security, Policies, Procedures, and Practices


Assurance for Internal Control over Financial Reporting
FNS conducted its assessment of the effectiveness of internal control over financial reporting as of June
30, 2012, in accordance with USDA’s Implementation Guide and as required by the Office of
Management and Budget Circular A-123, Appendix A.

This assessment included an evaluation of entity level controls, risk assessments, process descriptions and
flowcharts, documentation of key controls, an assessment of the design of key controls, tests of
effectiveness of properly designed controls, summary of deficiencies and the development of corrective
action plans for control deficiencies.

Management recognizes its responsibility for monitoring and correcting all control deficiencies. In our
2011 assurance statement, we reported that the agency’s internal controls (i.e., policies, procedures, and
methods adopted by FNS management) regarding reimbursable agreements had not yet been tested. In our
assessment review of reimbursable agreements we determined that the reimbursable agreement cycle
                                               Page 15 of 59
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)

would fail on test of design because we had no formal policies or procedures in place. As a result this
cycle was not tested. We are currently executing a corrective action plan (CAP) for the reimbursable
agreement cycle. The CAP was approved last year by the Department’s Internal Control Division.

In compliance with the CAP, we recently developed and issued agency procedures on the handling of
reimbursable agreements. The agency policy will be distributed no later than September 28, 2012. Any
reimbursable agreements that are approved subsequent to the issuance of the agency policy will be
reviewed and tested under the FY 2013 OMB A-123 assessment.

With regard to the other cycles (i.e., Financial Reporting, Grants Management, Funds Control, and Funds
Management Control) and the internal controls within those cycles, management certifies that there have
been no changes in the operations of controls tested from the sample selection date through June 30,
2012.

FNS had one previously existing deficiency which was identified in 2011, as a material weakness at the
Department level (i.e. unliquidated obligations). And while not yet fully remediated, FNS continues to
work to address this deficiency under CAP established in FY 2011. Under related General Computer
Controls testing, no significant deficiencies or material weaknesses were identified.

FNS provides reasonable assurance that the internal controls, financial processes and financial systems
are adequate to insure the accuracy of financial reporting for FY 2012, we have identified the following
areas of management concern that merit increased scrutiny, and where appropriate corrective action, to
mitigate any potential future impact.

•   State Diversion of Federal Recipient (or Sub-grantee) Funding – FNS continues to be concerned
    that an increasing number of States are attempting to divert FNS Federal grant funds for purposes
    other than that intended by appropriations. This involves the garnishment or offset of reimbursement
    payments due to program sub-grantees to satisfy State tax liabilities or other debts. A memorandum
    was sent last year from FNS Headquarters Financial Management to all Regional Administrators
    clarifying Federal authorities and limitations concerning the use of Federal grant funds appropriated
    for FNS programs. Regional offices shared this information with their respective State agencies to
    ensure that Federal grant funds appropriated for FNS programs are obligated and expended only for
    authorized purposes. However, we have reason to believe this practice is still occurring.

    The State agencies which administer the nutrition assistance programs and those which actually
    process program payments and manage State debt are typically separate. This appears to lead to a
    policy disconnect between the FNS State partners and the entities which are diverting the FNS grant
    funds – often the State Comptroller’s office. We believe that this issue needs to be addressed at a
    higher level within State government. Additionally, we need to coordinate across USDA and with
    other Federal partners to determine if other grant-making agencies are experiencing this problem.


•   Program Integrity, Oversight and Technical Assistance – FNS continues to work aggressively to
    protect the integrity and effectiveness of its programs. We have sought to leverage our limited staff
    through the innovative application of new technologies and through the adoption of focused, risk
    based approaches to program oversight and technical assistance. However, maintaining a critical,
    minimum level of Federal staff is essential to the agency’s ability to effectively assist its State
    partners and guarantee the integrity of the programs.


                                                Page 16 of 59
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                   NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)

    As with any Federal agency, ensuring the sustainability of the integrity of the programs is a major
    responsibility. The bi-partisan support the nutrition assistance programs have long enjoyed is rooted
    in part in the Agency’s reputation for strong program management and fiscal stewardship. We are
    concerned that further reductions in resources will have a negative impact on the programs
    administered by the Agency and compromise this reputation. In the Supplemental Nutrition
    Assistance Program (SNAP), an inability to provide adequate State oversight and technical assistance
    may result in a higher risk of erroneous payments/benefits to our recipient population. Additionally,
    efforts to further reduce the already low rate of retailer/recipient trafficking could be compromised.
    Finally, reducing our oversight and assistance presence in the States diminishes the likelihood of FNS
    quickly detecting and addressing emerging integrity and effectiveness problems. A recent of example
    of this would be the WIC vendor and redemption challenges discovered in California.


•   Continuity of Operation Plan (COOP) – The Agency needs to continue to advance its continuity of
    operations planning (COOP) in key areas including financial management and information
    technology where activity will likely be concentrated early in a COOP event. Top level and
    conceptual plans need to be expanded to include process flows, standard operating procedures
    (SOPS), desktop handbooks, and critical staff cross-training. Plans need to be developed for the
    testing of devolution through exercises.

    Financial Management (FM) made significant progress in the COOP during FY 2012, and intends to
    further develop SOPS and testing plans. Additional advancements in incorporating technology tools
    for a shared collaborative workplace for those charged with COOP duties is also needed for more
    effective use of our available resources and to strengthen communications. The extent to which plans
    are sufficiently detailed and tested is dependent on resources and management support.

    OIT is continuing to improve Disaster Recovery capabilities by reviewing, updating, and testing all
    IT Disaster Recovery and Contingency Plans for the agency. OIT is working with the Office of
    Emergency Management to improve the quality of scenario testing, including real life scenarios and
    live exercises. Failover testing has been completed in 2012 for file shares and voicemail. In addition,
    a Contingency Plan exercise was completed and periodic Table Top Tests are conducted for multiple
    FNS systems.


    In conclusion, FNS continues to struggle with diminishing staff resources. Any future reductions in
    FNS resources, any increases in responsibilities or change in program design without compensating
    Administrative resources increases may compromise the gains we have achieved in the areas of
    program integrity and FNS’ ability to adequately execute internal controls already put in place or to
    develop any additional controls that may be needed in the future.


OIG Audit Handling Process and Performance

USDA’s Office of the Inspector General (OIG) performs audits of FNS programs, systems and
operations. The results of this work are reports detailing, at a minimum, what was examined, findings that
should be addressed and recommendations for changes/improvements. Upon release of each final report,
FNS submits to OIG a written corrective action plan listing actions planned and dates by which these
actions will occur. Management decision is reached when OIG accepts FNS’s proposed corrective
actions.

                                                Page 17 of 59
                                  FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                       NOTES TO THE FINANCIAL STATEMENTS
                                     (Amounts shown are in Millions except as noted)

Upon reaching management decision, FNS’s Financial Management organization oversees follow-up
activities to assure that planned actions for each recommendation are implemented and completed. As this
occurs, FNS notifies the Department’s Office of the Chief Financial Officer (OCFO) and requests
concurrence that all actions described in the management decision agreement have occurred. Final action
is achieved for each finding/recommendation when all actions necessary to fulfill the management
decision agreement have been performed.

Delays in reaching Final Action status most often occur for two categories of reasons:

    o   The amount of time needed to complete certain activities cannot be accurately estimated.
        Examples of these are:
        • Specific legislation, policy or guidance needs to be developed;
        • An investigation, negotiation, or administrative appeal action must be completed;
        • An automated system needs to be developed, implemented, or enhanced;
        • The results of additional monitoring or program review activity must be completed;
        • Disallowed costs must be collected;
        • Legal advice or opinion from the Office of General Counsel is needed; or
        • Certain external (state) or administrative actions must occur.

    o   Changes that could not be anticipated at the time management decision was reached:
        • A change must be made to the management decision agreement. For example, the agreed
           upon management decision calls on the Agency to publish a regulation, but Congress initiates
           a moratorium on regulations.
        • Additional information, explanation, advice or action from OIG is needed.

USDA agencies submit quarterly progress reports to OCFO for all audits that remain open more than one
year past the management decision date. These interim reports show incremental progress toward
completion of planned actions, changes in planned actions, actual or revised completion dates, and
explanations for revised dates.



                    Audits Without Final Action More Than One Year Past the Management Decision Date

Audit Number        Date Issued             Audit Title                     Completion Date      Reason for Lack of Final
                                                                            For Actions (Est)    Action
27099-49-TE        9-4-07         Disaster Supplemental Nutrition              9-30-13          Pending publication of
                                  Assistance Program for Hurricanes                             final regulation.
                                  Katrina and Rita
27601-16-AT        3-31-08        Food Stamp Employment and                   12-31-13          Pending publication of
                                  Training Program                                              final regulation.
27099-34-SF        8-17-07        Summer Food Service Program                 unknown           Pending collection of
                                  California and Nevada                                         claim and debt closeout.




In FY 2012, audit numbers 27601-3-CH, Food Stamp Disqualified Recipient System; 27601-32-CH, Food and
Nutrition Service compliance with Improper Payments Requirements; and 27010-19-SF, Smart Start, Inc. were
closed. The Inspector General Act Amendments of 1988 requires the accompanying data for an annual report on the
status of audits.


                                                   Page 18 of 59
                                                  FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                                         NOTES TO THE FINANCIAL STATEMENTS
                                                       (Amounts shown are in Millions except as noted)




Assurance for Legal Compliance
The Office of the Inspector General (OIG) found that FNS did not fully comply with four of seven
Improper Payment Elimination and Recovery Act (IPERA) requirements. FNS did not always report
estimates for high-risk programs, report complete information about programmatic corrective actions,
meet annual reduction targets, and report error rates below specific thresholds. Below is a summary of
the noncompliance and FNS’ accomplishments with planned actions for becoming compliant with
IPERA.



                                               Outstanding Initiatives to Achieve Compliance
                                                                                         Section of                                             Target
                               Initiative                                              Non-compliance                       Agency           Completion Date
 Improper Payments Elimination and Recovery                               Published improper payment                          FNS                 FY 2013
 Act of 2010 (IPERA)                                                      estimates for all high-risk programs
                                                                          and activities.
                                                                          Published programmatic corrective                   FNS                 FY 2013
                                                                          action plans in the PAR.
                                                                          Published, and has met, annual                      FNS                 FY 2013
                                                                          reduction targets for each program
                                                                          assessed to be at risk and
                                                                          measured for improper payments.
                                                                          Reported a gross improper payment                   FNS                 FY 2013
                                                                          rate of less than 10 percent for each
                                                                          program and activity for which an
                                                                          improper payment estimate was
                                                                          obtained and published in the PAR.
    .



Non-                      IPERA                                                        Overall Estimated Completion Date             FY 2013
Compliance
with Laws and             IPERA non-compliance issues. (FNS)
Regulations
FY 2012 Accomplishments:                                                               FY 2013 Planned Actions:
• Food and Nutrition Service: Non-compliance #1                                        • Food and Nutrition Service:
• FNS’s FY 2006 Budget request included funds designated for a                         • FNS is currently conducting a feasibility evaluation test (CACFP
     nationally-representative CACFP erroneous payments study, however,                     Improper Payment Meal Claim Assessment) to develop an estimate of
     funds were not provided by Congress.                                                   meal counting/claiming errors based on parent-recall interviews for
• FNS reported an estimate of improper payments for the Family Day                          validating meal claims. The contractor will be entering the data
    Care Home Tiering Component.                                                            collection phase in the fall of 2012 with findings to be presented in
                                                                                            2012.

•       Food and Nutrition Service: Non-compliance #2                                  •    Food and Nutrition Service:
•       FNS has published corrective action plans (CAPs) in our PAR                    •    Once FNS received guidance from OCFO on including milestone
        submission for all five of our high-risk program areas – SNAP, NSLP,                completion dates, we included such dates in our CAPs, starting with the
        SBP, CACFP and WIC – for a number of years.                                         FY 2012 plans.

•       Food and Nutrition Service: Non-compliance #3                                  •    Food and Nutrition Service:
•       In three of our programs, the target error rate for FY 2011 (reported in the       These differences (1.03% for SBP, 0.1% for CACFP, and 0.08% for WIC)
        2011 PAR) was not reached by the actual FY 2011 error rate reported in             are within the tolerance level for the estimates of error. OMB would
        the 2012 PAR:                                                                      consider these discrepancies to represent negligible variances.
•              SBP - Target – 24.15%          Actual - 25.18%

                                                                         Page 19 of 59
                                           FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                                 NOTES TO THE FINANCIAL STATEMENTS
                                               (Amounts shown are in Millions except as noted)

•      CACFP - Target - 1.48%          Actual - 1.58%

•      WIC - Target - 4.05%           Actual - 4.13%

• Food and Nutrition Service: Non-compliance #4                         • Food and Nutrition Service:
FNS reported an error rate in excess of 10% for both NSLP and SBP.      • The Healthy, Hunger-Free Kids Act of 2010 included a number of
                                                                           provisions to improve the management and integrity of child nutrition
                                                                           programs, which FNS is in the process of implementing
                                                                        • The methodology for estimating improper payments in NSLP and SBP
                                                                           is based on a 2005 study. FNS has scheduled a new study to update
                                                                           the data, and data collection is scheduled for School Year 2012/2013.
                                                                           This new study will reflect NSLP and SBP current improper payment
                                                                           rates and account for corrective actions implemented since the last
                                                                           study.




                                                                Page 20 of 59
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)


SECTION 4. IMPROPER PAYMENTS INFORMATION ACT
(IPIA)
The Improper Payments Information Act (IPIA) requires all agencies to 1) review all programs and
activities, 2) identify those that may be susceptible to significant improper payments, 3) estimate the
annual amount of improper payments for each program and activity and 4) report results.

Appendix C of OMB Circular A-123 defines significant improper payments as an annual amount that
exceeds both 2.5% of program payments and $10,000,000. For programs/payments that fit this
description, agencies must:

    •   Measure and reduce the improper payments,
    •   Identify the causes and take action to correct them,
    •   Implement necessary infrastructure to support activities,
    •   Develop proposals to obtain necessary infrastructure, and
    •   Hold managers accountable for results.

FNS assessed all food assistance programs as well as its Nutrition Programs Administration (NPA)
funding, which support FNS’s Federal administrative operations. Assessments were conducted in
conjunction with USDA-coordinated procedures. FNS, with OMB concurrence, has designated five
programs as susceptible to significant improper payments: the Supplemental Nutrition Assistance
Program (SNAP), the Special Supplemental Nutrition Program for Women, Infants and Children (WIC),
the Child and Adult Care Food Program (CACFP), the National School Lunch Program (NSLP) and the
School Breakfast Program (SBP). Improper payment measurement activities for each are described
briefly below.

    •   The Supplemental Nutrition Assistance Program (SNAP – formerly known as the Food Stamp
        Program), sampling and erroneous payment measurement processes, [the accepted hallmark of
        the IPIA environment] has been a legislative mandate for more than 30 years. This process
        compares the certification criteria upon which a household’s benefit issuance is determined with
        the household’s circumstances at the time of issuance. All case results are accumulated by state.
        The state results are validated and the validated results are combined into a national cumulative
        (overpayments plus underpayments) error rate. No other payment lifecycle steps are included.
        Improper payment measurement activities predate the passage of the IPIA. SNAP processes
        were compliant with the intent of the law when it was passed. State agencies are required to
        establish and collect SNAP claims in accordance with the requirements found in the Program
        regulations. Debts that become delinquent are subsequently submitted by the State agencies for
        collection through the Treasury Offset Program. In past years, FNS has used target measures to
        gauge the success of recipient claims activity. Claims collection by States is ongoing, however,
        success in this area can be challenging, since collections are to a large extent tied to the ability of
        each individual State to pursue and collect erroneous payments. To complicate matters, State
        error rates fluctuate over time with changes in the economy and in the numbers of the recipient
        population

    •   In the Special Supplemental Nutrition Program for Women, Infants and Children (WIC),
        work is underway to report improper payment error rates on two segments of the program:
        certification error and vendor error.


                                                Page 21 of 59
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)

            o   FNS first reported a vendor improper payment error rate in FY 2006. Over and under
                payment rates for FY 2005 were developed through a nationally representative study of a
                probability sample of WIC vendors. Data from this study is then in conjunction with
                information on vendor investigations by State WIC Agencies to prepare a statistically
                estimated improper payment amount for each subsequent year. Until the next study is
                completed, the 2005 rates will be aged using data generated by State undercover
                investigators who attempt to make WIC purchases using valid WIC food instruments.
                The charges submitted by each sampled vendor are compared to the undercover purchase
                activity to estimate overcharging, and other sanctionable violations. Case results are
                accumulated by State and used to age the estimates.

            o   Certification rate: The National Survey of WIC Participants-II (NSWP-II_) included a
                measurement of the amount of erroneous payments associated with certification error.
                WIC households were interviewed and compared to the certification criteria upon which
                a household’s benefit issuance was determined with the household’s circumstances at the
                time of issuance. The NSWP-II that contains a final estimate of erroneous payments due
                to certification error was published in April 2012.

            o   Because erroneous payment estimates need to be produced annually, and given that
                surveys such as the NSWP-II are extremely expensive to mount, FNS required a
                methodology to “age” the estimates produced in that study. The generation of improper
                payments associated with erroneous WIC eligibility in the years beyond FY 2009, is
                based on a three-stage model. In the first stage, equations were developed from the
                NSWP-II survey data to predict the probability that a WIC participant was certified
                erroneously (i.e., deemed eligible when the participant’s actual income was not within
                eligibility guidelines) and to predict the average annual cost of an erroneous
                determination for those in error. The second stage of the process focuses on predicting
                the size and changes in the composition of the WIC population. The files used for
                gaining the WIC population included WIC Participant Characteristics data a census of all
                EIC participants enrolled within a particular target month (April) every even year) and
                WIC administrative data obtained from the National Data Bank that can provide
                information on overall trends within WIC certification category and region. The third
                stage of the process is to apply the predictions generated from the first stage to the second
                stage population. This approach results in population-adjusted estimates of the incidence
                of eligibility errors and dollar impact.

Current statutory authority allows USDA to recover improper payments from state agencies when
identified through reviews, audits or other operational oversight activities. This authority does not
support collection of improper payments identified on the basis of a statistical sample or estimation
procedure, as is used to develop the national estimates of improper payments reported here.

    •   The Child and Adult Care Food Program (CACFP) has three distinct parts: Child Care
        Centers, Adult Day Care facilities and Family Day Care Homes (FDCHs). Overall program
        funding is provided to state agencies which provide funds to sponsoring organizations to pay for
        claims for reimbursable meals served at provider sites. Sites can be as large as an institution or as
        small as a household. Each part of CACFP has its own reimbursement structure.

        Payments and claim information are transferred among FNS, State agencies, program sponsors
        and program sites; each such transaction represents a risk for improper payment. Because
        requirements vary significantly for each different type of program sponsor and site, a
                                                Page 22 of 59
                     FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                          NOTES TO THE FINANCIAL STATEMENTS
                        (Amounts shown are in Millions except as noted)

comprehensive assessment of improper payments is extremely complex.

The original plan was to develop a program-wide study which would examine reimbursements
for meals served and develop program error measurements that complied with the requirements
of the IPIA. Because of the complexities of the program, FNS estimated that it would cost $20
million to measure improper payments at the precision required by IPIA. This amount has not
been appropriated.

FNS has identified the FDCH component of this program as potentially high risk, and measures
error in this part of the program in lieu of the unfunded comprehensive measure. FDCHs
participate in CACFP through public or private nonprofit sponsoring organizations. FDCH
improper payments are most likely caused by sponsor error in determining a participating home’s
reimbursement tier (tiering error) or by FDCH error in reporting the number of meals which are
eligible for reimbursement (claiming error).


Two activities are underway which provide information on improper payments in the
FDCH component of CACFP. A third activity is being pilot tested.

   o   CCAP – In the spring of 2004, FNS began the Child Care Assessment Project
       (CCAP). This project was designed to measure the effectiveness of efforts to improve
       the integrity of CACFP family day care homes and provide information from a broadly
       representative national sample of sponsors and providers. Data were collected by the
       Food and Nutrition Service (FNS), in cooperation with State agencies and sponsors
       administering the Child and Adult Care Food Program, during the period 2004-
       2007. The CCAP process was designed to measure whether the two interim management
       improvement rules issued by FNS in 2002 and 2004 had been properly implemented, and
       whether the rules had effectively addressed the serious program management and
       integrity problems that had been uncovered in the 1990s. In the three and one-half years
       during which assessments were conducted, FNS gathered the program records of 58
       family day care home (FDCH) sponsors and over 3,000 of their providers. A final report
       was issued in July 2009. Overall, the findings indicated that the serious problems which
       had prompted the previous legislative and regulatory action were not common in 2004-
       2007. However, some concerns were identified, including the accuracy of recordkeeping
       by family day care home providers and the use of the serious deficiency process by
       program sponsors. FNS is currently developing an action plan to address those CCAP
       findings which suggest a need for additional measures to improve Program
       administration in the FDCH component of CACFP at the local, State, and Federal levels.
       This action plan will take into account the very real challenges of providing Federally-
       supported nutrition assistance in approximately 140,000 private residences across the
       country. Therefore, any changes to Program procedures and requirements recommended
       in the action plan will consider this unique aspect of administering the CACFP

   o   Sponsor error – FNS has developed an annual sponsor tiering error measure and tested
       it. CACFP sponsors are responsible for determining whether family day care homes
       receive meal reimbursement at the higher rate (Tier 1) or lower rate (Tier 2). In FY 2005,
       the first annual data collection began to determine a nationally representative sponsor
       tiering determination error rate. Results for FY2005 through FY2010 have been reported.
       FY 2010 estimates were available in September 2011.

                                      Page 23 of 59
                          FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                               NOTES TO THE FINANCIAL STATEMENTS
                             (Amounts shown are in Millions except as noted)

        o   Claiming error - In its 2006 measurement plan, FNS proposed to test the feasibility of
            estimating the risk of claiming errors. FNS proposed to select a random sample of
            sponsoring organizations and, from each, use a random selection of the sponsor’s
            monitoring visits of FDCHs. FNS would compare the number of meals claimed with the
            number of children observed at the time of the visit. If feasible to conduct, it was
            assumed that this comparison would provide an estimate of the risk of overpayment.

            FNS staff collected data in 11 family day sponsors around the country, gathering a
            random sample of 268 FDCH sponsor monitoring visit records. For each, FNS gathered
            the FDCH’s meal claim data for the month of the monitoring visit and the month before.
            Results were analyzed and released in a report in May 2009; FNS found that the tested
            method does not provide a reliable estimate of family day care meal claiming error.

            FNS developed and pilot tested additional alternatives to determine the feasibility of
            estimating the risk of claiming error by methods such as direct observation of FDCHs or
            by contacting parents to determine if children were really present at a FDCH when
            claimed. This test found that parent recall surveys are worthy of further evaluation as the
            method most likely to yield reliable information on improper payments related to meal
            claiming errors. A report on the feasibility study was released in September 2009.

             An expanded feasibility study is currently underway to assess the feasibility of using
            information from parent-recall interviews in the validation of meal claims submitted for
            reimbursement by family daycare home providers.

    Improper payments identified through the course of a review, audit, or through other operational
    oversight activities can be recovered either through direct billing or through an offset of future
    program payments earned. Current statutes only provide authority to recover improper payments
    identified through reviews, audits or other operational oversight activity. Program regulations
    allow States to waive claims against a single institution for improper payments of up to $600 in a
    single fiscal year. CACFP does not have authority to pursue collection of improper payments
    identified on the basis of a statistical sample or estimation procedure.

•   The National School Lunch Program and School Breakfast Program do not have a sampling
    and erroneous payment measurement process comparable to SNAP. Instead, FNS relies on
    nationally representative studies to produce estimates of erroneous payments. The most recent
    study was USDA’s NSLP/SBP Access, Participation, Eligibility and Certification Study reported
    in 2007, which examined improper payments in a nationally-represented sample of schools. An
    updated study is underway that will collect data in School Year 2012-13. Contingent upon
    available funding, FNS will continue to produce an erroneous payment measurement by updating
    this study every five years. FNS also uses data available from other sources to estimate erroneous
    payments due to certification error on an annual basis. Current statutory authority allows USDA
    to recover improper payments from state agencies when identified through review, audits or other
    operational oversight activities. Current statutory authority does not support collection of
    improper payments identified on the basis of a statistical sample or estimation procedure, as is
    used to develop the national estimates of improper payments reported here.




                                           Page 24 of 59
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)


1. Policy Options for Addressing Improper Payments:

FNS recognizes its fundamental responsibility to promote effective program management and reduce and
prevent improper payments. But identifying strategies to address this problem is complicated by the
linkages between an environment with management controls, its operation in thousands of schools
balancing multiple responsibilities, and the need to avoid barriers to free or reduced price meals for
eligible children. To date, proposed strategies have generally been unacceptable to policymakers and
other stakeholders unless they:

    •   Improve payment accuracy without compromising access for low-income families. A process that
        keeps eligible children from participating would undermine the program.
    •   Avoid significant new burden on schools. Many schools consider the program burdensome now;
        adding burden without offsetting incentives could discourage schools from participating.
    •   Are cost-effective. Improving accuracy is potentially resource-intensive; policymakers must not
        create a process that increases net program costs.
    •   Answer the needs of other users of program data, which often use certification data to distribute
        millions of dollars in other kinds of benefits to schools. As these needs contribute to the problem,
        a solution may also require new commitments from those users.

Program changes to address NSLP payment accuracy; some of which are currently being implemented as
a result of the Healthy Hunger- Free Kids Act of 2010.


Certification Error

As reported in USDA’s FY 2010 Performance and Accountability Report, there were approximately $840
million in improper payments in FY 2009 arising from misclassification of student eligibility for the
appropriate level of per-meal federal payment (free, reduced-price, or paid). About two-thirds of this
“certification error” results from the misreporting of income by households on Program applications. The
balance is due to administrative error at the school or school district.

    •   Misreporting Error – Currently, the application process for school meals relies on attestation by
        households of their income, rather than any documentation by the applicant or use of third-party
        data to verify claims at certification. Policy reforms to address certification error arising from
        income misreporting by families have focused on requiring information beyond the applicant’s
        claim to support the application. To date, the most successful of these have been categorical
        eligibility and direct certification, which rely on participation in means-tested programs that do
        require income documentation, such as the Supplemental Nutrition Program (SNAP), to ensure
        eligibility for free meals.

        Steps beyond this, to require documentation or increase verification after certification, have
        largely been opposed in Congress and the advocacy community due to concerns that such
        requirements would reduce access to meals by low-income families.

    •   Administrative Error – These kinds of certification errors reflect mistakes made by school
        personnel in processing applications – misreading the attested income information, or applying
        the eligibility standards incorrectly. Traditionally, school districts have had significant discretion
        regarding their internal procedures for application review.


                                                Page 25 of 59
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)

Significant reforms to the certification process require legislative action; and some legislative changes in
this area were included in the Healthy, Hunger Free Kids Act of 2010 (HHFKA); these are noted when
relevant in the descriptions of the options below:

Increase verification: Currently, a small number of household applications (up to 3%) are selected for
verification of income after approval. Free or reduced price eligibility status may be changed based on
the documentation received, and those who do not respond to the verification request have their eligibility
revoked.

During the 2004 reauthorization, the Administration informally offered a proposal for “graduated”
verification, which would require larger verification samples (25% or more) in school districts which
found significant misreporting in the initial sample. Opponents of expanded verification cited an FNS
analysis which found high rates of “nonresponse” to the request for income documentation, resulting in
loss of certification, and further found that approximately half of nonrespondents were eligible for free or
reduced price benefits. Moreover, a demonstration of graduated verification did not show a measurable
reduction in improper payments. In the end, this proposal was rejected on a bipartisan basis, due to
concerns about the impact on eligible families, and Congress prohibited school districts from verifying
more than the statutorily-required 3 percent, making that requirement both a minimum and a maximum.

We could reconsider the graduated verification approach tested in the pilots, or options such as removing
or increasing the 3 percent ceiling. However, as with up-front income documentation, the current impact
of any increased verification requirements on program costs or on eligible families is not clear, as direct
certification and changes to the verification process in recent years have likely impacted the
characteristics of the applications subject to verification. But the requirement of an affirmative response
to the documentation request would almost certainly lead some families, including some eligible families,
to lose benefits due to non-response. As with the up-front documentation requirement, additional
resources would be required at the SFA level to conduct additional verification activities.

Eliminate the reduced-price category: The reduced-price benefit category (between 130 and 185 percent
of the poverty level) is considerably more prone to error than the free category, with approximately one-
third of students approved for reduced price actually eligible for free meals and another quarter only
eligible for the paid reimbursement level. Eliminating this category by making free meals available to
these children would eliminate the first category of errors, and also simplify the application approval
process at the school level to some degree.

This option has been strongly promoted by some in the advocacy community in prior years as an
administrative reform that would also increase access to meals for families that may not be able to afford
the charges (up to 40 cents) for reduced-price meals. And authority exists for a pilot to eliminate the
reduced-price category (though it has never been funded). However, the cost of this option is significant.
Making reduced price meals free will increase Federal reimbursements for lunch and breakfast by an
estimated $250 million in FY 2012 due to the increased costs to the Federal government for meals that are
already being served. However, if eliminating the need to pay even a nominal amount encourages more
frequent participation by these students, the annual cost could be significantly in excess of this amount.

Establish universal free meal programs: Reimbursing all meals at the free rate would, by definition,
eliminate the $840 million in estimated payment errors associated with the eligibility certification process.
This approach would also be welcomed by many in the school nutrition and anti-hunger community, as it
would simplify the program; underscore the importance of nutritious school meals for all students, and
eliminate stigma associated with receipt of free or reduced-price meals.

                                                Page 26 of 59
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                    NOTES TO THE FINANCIAL STATEMENTS
                                   (Amounts shown are in Millions except as noted)

However, because this option is so costly, it is not likely to be feasible in the current fiscal environment.
When last estimated, it was found that the cost of providing universal free school meals would about
double program costs from $12.6 billion in FY 2009 to $25 billion.

Enhance local requirements for review of applications: As noted, school districts traditionally have had
significant discretion regarding their internal procedures for application review. However, the HHFKA
requires school districts at high risk for error (as defined by USDA) to conduct a second-level review of
applications prior to notifying families of their eligibility status. FNS will implement this provision
through proposed regulation in early 2012. In addition, the frequency of the required State review of
local operations will be increased from once every five years to once every three years.

Expand the pool of students certified using non-application based methods: Direct certification with
SNAP, FDPIR and TANF records has been shown to be a highly accurate method of identifying eligible
students. The HHKFA contained numerous provisions designed to increase direct certification, including
rewarding States for improvement in direct certification rates; and establishing a large-scale
demonstration project for direct certification with Medicaid.

In addition, the HHFKA provides new alternatives to paper application systems in low-income areas,
which will reduce the number of paper applications that are processed manually and establish eligibility
criteria based on information other than household reporting.


Non-Certification Error:

Improper payments of approximately $614 million were due to the submission of claims for payments
reflecting inaccurate counts of reimbursable meals. About half of these non-certification errors result
from meals being claimed for reimbursement which do not actually meet Federal standards for the types
and amounts of food served. The other half arises from errors in the aggregation and submission of meal
service data to school districts and State agencies.

Options for reducing non-certification error focus on strengthening capacity at the local level to avoid
errors, and strengthening oversight by State agencies to correct errors prior to payment of claims. Both
approaches require increased authority and increased administrative resources, some of which were
provided by the HHFKA:

Training of school food service personnel: Improved training at the local level would focus on
improving understanding of the requirements associated with a reimbursable meal. The HHKFA
establishes requirements and modest funding for such training. FNS is currently working in collaboration
with professional food service organizations to develop on-line resources. However, improvements in
error associated with recognizing reimbursable meals will be made more difficult by the anticipated
implementation of major changes in meal requirements anticipated during the next several school years.

Improved technology for counting and claiming of meals: While automated tools for counting and
claiming meals exist, they have not been consistently utilized, at either the local or State level. Currently,
there is no targeted local level funding for this purpose. At the State level, $4 million per year is available
for grants to improve State oversight, including systems that utilize data mining concepts to identify
districts at high risk for errors. FNS has in recent years focused these funds on technology-focused
approaches which allow States to identify and correct counting and claiming errors at the school district
level and target appropriate action. However, to date, such systems are still largely in the developmental
stages and have not been systematically evaluated.
                                                 Page 27 of 59
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                   NOTES TO THE FINANCIAL STATEMENTS
                                 (Amounts shown are in Millions except as noted)



The primary barrier to this approach is cost for evaluation and funding of local-level technology. We
believe that $20-30 million annually would support evaluation efforts at the State and local level (see
section 3 below). While we do not have a precise estimate of the cost of funding improved technology at
the local level, we believe an investment of several hundred million dollars in targeted grant funding
would be required.

Improved oversight and enhanced consequences for repeated failure to correct identified problems: As
noted, the HHFKA reduced the cycle for State reviews of local school operations from five years to three.
These reviews include non-certification as well as certification error. In addition, the HHFKA provided
FNS with new authority to impose fines and penalties against States and local program operators for
repeated or willful noncompliance. While this authority can be used to address all types of program error,
it is likely that it will be most useful in dealing with serious counting and claiming problems for which
little recourse previously existed. USDA will implement this requirement via proposed regulation in
early 2012.

Conceptually, systematic penalties for States with performance below required standards in this area (or
rewards for those with outstanding performance) are another option for consideration. However, this
would require the development of measurement systems yielding reasonably accurate State-level
estimates, which are currently not in place. The Quality Control system currently used in SNAP costs in
the area of $200 million per year to operate. We estimate that a similar system for school meals would be
at least as costly, given the greater diversity and decentralization of the program at the sub-State level.

Pilot a Recovery Auditing Process: Utilize the upcoming USDA contract for recovery auditing to
conduct a pilot study for NSLP to determine if such a process would be feasible and cost-effective. Cost
would vary depending on the scale and scope of the pilot.


2. Measurement Issues

USDA identified three actions that we intend to pursue in this area:

Repeat and/or Enhance National Study: FNS completed the initial nationally-representative estimates
of NSLP improper payments with the 2007 Access, Participation, Eligibility and Certification (APEC)
study, which examined School Year 2005-06. USDA re-programmed funds for APEC II to allow data
collection in School Year 2012-13.

Explore Additions to the Annual Estimation Model: FNS uses an econometric model to “age” the data
from the APEC study to reflect changes in program size, as well as changes in certification accuracy,
based on State-reported administrative data. One of the major sources of non-certification error, the
process of identifying reimbursable meals and collecting and reporting meal counts for reimbursement
claims, is not currently built into the model because of data limitations. The Agency has placed a major
focus on administrative efforts to improve counting and claiming, but is unable to model the impact of
these efforts over time. To the extent that improvements in counting and claiming may have occurred, the
annual estimates may overstate the actual level of payment errors.

FNS will explore the potential of using data from the Coordinated Review Effort (CRE) process, which
includes information on counting and claiming, to improve its modeling. Because the CRE is a Federal-
State oversight mechanism for local schools and CRE data is not designed to be representative, this effort

                                               Page 28 of 59
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)

may require changes to that process to make the data usable, and thus may require significant time and
resources, and an increase in reporting burden.

Identify and Measure Technical vs. Substantive Errors: OMB noted that one of the strategies frequently
used by Federal agencies in reporting improper payments is to distinguish between substantive errors and
technical errors. The latter may include:
• payments that were substantively appropriate in amount and to the correct payee, but were incorrect
    because of application problems or other minor violations of program rules;
• payments that may have been to a correct payee, but incorrect in amount, for which the whole
    payment is reported as entirely incorrect; and
• payments that are below a threshold or tolerance of errors that can be disregarded.

The APEC study leaves out the first two categories of errors, but provides no threshold of error levels.
One question that remains open is whether thresholds that may be different from program policy are
acceptable to incorporate into measurement methods.

FNS will identify one or more school-level thresholds for improper payments, and seek to analyze
existing data to determine how such thresholds would change the substantive error rate. If existing data
does not permit this differentiation, we will incorporate the necessary data elements into the APEC II
study to allow this calculation.

3. Proposed Short-Term Strategies

Obtain funding for measurement improvements: FNS re-programmed funds to promptly launch APEC
II to allow data collection in School Year 2012-13.

Request $20-30 million to pilot test and evaluate technology-based program management tools: FNS
recommends the establishment of a mandatory annual funding stream in the budget to provide consistent
resources to develop and evaluate program integrity tools. This resource would be used to fund and
evaluate local-level pilots of comprehensive counting and claiming systems, and analysis techniques
(such as data mining). It would also be available to evaluate the effectiveness of State-level oversight
systems. These efforts would inform development of future proposals for technology enhancements
targeted at the local level, as well as informing future use of existing funds for State systems.

Implement HHFKA provisions: As noted, the HHFKA provides authority for a number of policy
changes which will have an impact on improper payments. FNS will continue to move expeditiously to
implement these provisions.

Additional information on FNS’ Improper Payments Information Act (IPIA) activities can be found in the
USDA Performance and Accountability Report.

The tables below summarize the results of measurement activities for FNS programs identified as subject
to a significant risk of improper payments. The first table shows improper payment rates for the last two
years and the second table reflects future reduction targets. All results reported each year represent
measures of outlays and program activity for the previous year.




                                                Page 29 of 59
                                       FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                            NOTES TO THE FINANCIAL STATEMENTS
                                          (Amounts shown are in Millions except as noted)


            Preliminary Data as of 7/31/12 – FNS Measures for IPIA Reporting
                      2012 Performance and Accountability Report
                                 Improper Payment Sampling Results ($ in millions)
                                                            Results                        Results
                         Program                      Reported in FY 2011            Reported in FY 2012
                                                   Outlays    IP%         IP$      Outlays   IP%       IP$
  Supplemental Nutrition Assistance Program, FNS               64,705          3.81%        2,465       71,813      3.80%      2,729
  National School Lunch Program, FNS                           10,739         15.98%        1,716       10,024     15.53%      1,557
  School Breakfast Program, FNS                                 2,824         24.96%          705        2,987     25.18%        752
  Women, Infants and Children, FNS
    Total Program                                               4,648           N/A          N/A         4,886     4.13%        202
    Certification Error Component                                 N/A           N/A          N/A           N/A     2.98%        146
    Vendor Error Component                                        N/A           N/A          N/A           N/A     1.15%         56
  Child and Adult Care Food Program, FNS
    Total Program                                               2,521           N/A          N/A         2,653       N/A        N/A
    FDC Homes – Tiering Decisions                                 N/A         1.53%          13.7          N/A     1.58%         14
    FDC Homes – Meal Claims                                       N/A           N/A          N/A           N/A       N/A        N/A




                  Detailed Breakout of Improper Payment Rates reported in FY 2012 ($ in millions)
                                              Total                      Over-          Under-
                                                           IP%                                                               Other
                                            Payments                  payments         payments
 Supplemental Nutrition Assistance Program,
 FNS                                                  2,729         3.80%                 2.99%             .81%              N/A
 National School Lunch Program, FNS                   1,557         15.53%               11.78%            3.74%              N/A
 School Breakfast Program, FNS                         752          25.18%               21.70%            3.48%              N/A
 Women, Infants and Children, FNS                      202          4.13%                 3.79%            0.34               N/A

 Child and Adult Care Food Program, FNS
                                                         14         1.58%                1.30%             0.28%              N/A




                                 Improper Payment Reduction Outlook ($ in millions)
                              FY 2012 Reporting           FY 2013 Reporting                               FY 2014 Reporting
      Program
                           Outlays    IP%       IP$  Outlays      IP%         IP$                      Outlays    IP%       IP$
Supplemental Nutrition
Assistance Program,
FNS                           71,813      3.80%      2,729         76,030       3.79%        2,897        76,030     3.78%       2,897
National School Lunch
Program, FNS                  10,024      15.53%     1,557         11,106       15.10%       1,677        11,414    14.67%       1,674
School Breakfast               2,987      25.18%       752
Program, FNS                                                        3,467       24.36%           845       3,617    23.57%           853
Women, Infants and
Children, FNS                  4,886      4.13%        202          4,560       4.00%            182       5,290     3.92%           207
Child and Adult Care
Food Program, FNS              2,653      1.58%         14              922     1.53%             14         951     1.48%          14




                                                        Page 30 of 59
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                   NOTES TO THE FINANCIAL STATEMENTS
                                 (Amounts shown are in Millions except as noted)


SECTION 5. LIMITATIONS OF FINANCIAL STATEMENTS
The principal financial statements have been prepared to report the financial position and results of
operations of the Food and Nutrition Services (FNS), an agency of the United States Department of
Agriculture, pursuant to the requirements of 31 U.S.C. 3515 (b). While the statements have been prepared
from the books and records of FNS in accordance with GAAP for Federal entities and the formats
prescribed by OMB, the statements are in addition to the financial reports used to monitor and control
budgetary resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S. Government,
a Sovereign entity.


SECTION 6. FINANCIAL STATEMENTS HIGHLIGHTS AND
ANALYSIS
FNS’ FY 2012 financial statements reflect the nutrition assistance programs’ responsiveness to the
Nations’ economic performance. By design, the level of activity within the nutrition assistance programs
varies with the level of need experience by the populations we serve. A key determinant of this level of
need is the condition of the economy. In FY 2011 the economy performed weaker than was anticipated by
the President’s FY 2011 budget request. As a result, program participation and costs, as reflected in the
financial statements are, on average, higher than was anticipated.

In accordance with the US Standard General Ledger and the Treasury Financial Manual 1TFM 4700, in
FY 2008 FNS clarified its reporting of the Grant Award (GAD) Accrual. FNS performed an analysis of
the GAD Accrual and determined that the GAD Accrual consisted of Entitlement Benefits and Non
Entitlement Benefits. For the FY 2012 Financial Statements FNS will report Entitlement Benefits as
“Benefits Due and Payable” and report Non Entitlement Benefits as “Other Liabilities” on the Balance
Sheet and related footnotes. The classifications of these accruals have no impact on the amounts reported
for Total Liabilities.

Balance Sheet
                                         2012                            2011
                               Dollars (mil)       Percent      Dollars(mil)  Percent
Fund Balance With Treasury            25,559        96.86%           17,511   95.98%
Accounts Receivable                      356         1.35%              324    1.78%
General PP& E                                1       0.01%                 1   0.01%
Other                                    469         1.78%              407    2.23%
   Total Assets                       26,385       100.00%           18,243 100.00%
Accounts Payable                           10        0.04%                 8        0.01%
Employee Benefits                           7        0.03%                 6        0.03%
Benefits Due and Payable                3,837       14.58%             3,500       19.19%
Other Liabilities                       1,601        6.08%             1,677        9.19%
  Total Liabilities                     5,494       20.88%             5,192       28.46%
Unexpended Appropriations              20,514       77.97%            12,775       70.03%


                                                Page 31 of 59
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)


Cumulative Results of
Operations                                 378        1.16%               276        1.51%
  Total Net Position                    20,892       79.12%            13,051       71.54%
Total Liabilities & Net
Position                                26,385         100%            18,243        100%




The Balance Sheet composition (comparative composition of account balances to the totals) remained
substantially the same in FY 2012 as the prior year. The vast majority of FNS assets are held in Fund
Balance with Treasury (FBWT) - approximately 96% in FY 2012 and FY 2011. This cash-like account
largely represents the aggregate amount of funds in the FNS accounts with the U.S. Treasury from which
the agency is authorized to make expenditures and pay liabilities. As financial statement Note 3 presents,
a substantial portion of the fund balance is unavailable as they are associated with either expired years or
are contingency funds which were not made available.

“Other assets” remained at levels consistent with the prior year. Accounts receivable levels also remained
consistent with the prior year.

Benefits Due and Payable represents the largest liability of the agency, typically representing amounts
that are currently payable to grantees on Entitlement Benefits Programs. The FY 2012 and FY 2011 Net
Position of the agency is concentrated in Unexpended Appropriations.

Statement of Net Cost
                                      2012                                 2011
                            Dollars(mil)       Percent          Dollars(mil)          Percent
Gross Cost                        106,653      100.06%                 103,242         100.05%
Less: Earned Revenue                 (69)        -0.06%                    (57)          -0.05%
Net Cost of Operations            106,584      100.00%                 103,185         100.00%



The FNS mission addresses USDA Strategic Goal 4 “To Improve the Nation’s Nutrition and Health”. All
program costs are reported under that strategic goal. Gross Costs increased from $103,242 million in FY
2011 to $106,653 million in FY 2012, reflecting the overall increase in programs participation levels.

As the chart above displays, Earned Revenue represents an extremely small offset to Gross Costs (less
than one percent), in both fiscal years. Earned revenue largely represents funds from the State Option
Supplemental Nutrition Assistance Program authorized under P.L. 105-18. One State participating in this
program (California) reimburse FNS for benefits paid to legal immigrants who do not qualify for the
Federal Supplemental Nutrition Assistance Program to whom the States have “opted” to provide benefits.
Additional earned revenue is received from other Federal agencies for reimbursement of expenses related
to information technology services and facility-related services including WBSCM, Commodity
Improvement Initiative and Whole Grain Study.

The Net Cost of Operations increased from $103,185 million in FY 2011 to $106,584 million in FY 2012.


                                                 Page 32 of 59
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)


Statement of Changes in Net Position

                                          2012                                  2011
                                 Dollars(mil)  Percent           Dollars(mil)          Percent
Cumulative Results of
Operations
Beginning Balance                         276                               267
Appropriations Used                    99,337      93.18%                97,031           94.03%
Transfers In (Out) without
Reimbursements                          6,908       6.41%                 5,407            5.24%
Other Budgetary Financing
Sources                                    0       0.00%                      0            0.00%
Imputed Financing                        441        .41%                    755             .73%
  Total Financing Sources            106,685     100.00%                103,193          100.00%
Less: Net Cost of Operations         106,584                            103,185
Ending Balance                           378                                276
Net Change
                                          102                                   8
Unexpended Appropriations
Beginning Balance                       12,775                           16,393
Appropriations Received               110,347                            99,116
Adjustments                            (3,273)                          (5,706)
Appropriations Used                  (99,337)                          (97,031)
Total: Financing Sources               (7,737)                          (3,618)
Ending Balance                          20,514                           12,775


Total Net Position                     20,892                            13,051



The Statement of Changes in Net Position explains the changes in the two components of Net Position of
the Balance Sheet from year to year, the Cumulative Results of Operations and the Unexpended
Appropriations.

The FY 2012 appropriations used was $99,337 million, increased $2,306 million from FY 2011, based on
actual participation levels and food costs.

Cumulative Results of Operations increased $102 million, from $276 million in FY 2011 to $378 million
in FY 2012, as the net cost of operations is greater than the total financing sources. The proportional
distribution of financing sources among appropriations, transfers, and imputed financing remained
relatively unchanged from FY 2011 to FY 2012. Transfers are largely made up a single large transfer
made in the annual appropriations act from funds available to the Secretary under Section 32 of the Act of
1935 for support of Child Nutrition programs. Additionally, FNS received transfers from the Commodity
Credit Corporation for the Senior Farmers Market Program. Transfers represented approximately six
percent and five percent of total financing sources in FY 2012 and FY 2011 respectively.

Unexpended Appropriations increased from $13,051 million in FY 2011 to $20,892 million in FY 2012
as less carryover appropriation balances were expended in the current year. Adjustments decreased from

                                                 Page 33 of 59
                                FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                     NOTES TO THE FINANCIAL STATEMENTS
                                   (Amounts shown are in Millions except as noted)

$5,706 million in FY 2011 to $3,273 million in FY 2012 are due to permanent reductions and
cancellations of expired accounts.

Statement of Budgetary Resources

                                          2012                                 2011
                                 Dollars(mil)  Percent          Dollars(mil)          Percent
Budgetary Resources
Beginning Unobligated
Balance                                10,726        8.54%             14,580            12.73%
Recoveries                                817         .65%              1,237             1.07%
Other Changes In Unobligated
Balances                                -3,262      -2.60%             -5,036            -4.39%


Appropriations                        117,371      93.32%             103,731            90.47%
Spending Authority from
Offsetting Collections                     117        .09%                138              .12%


Total Budgetary Resources             125,769     100.00%             114,650           100.00%

Status of Budgetary
Resources
Obligations Incurred                  107,404      85.45%             103,924            90.64%
Apportioned                             5,581       4.44%               4,179             3.65%
Unapportioned                          12,784      10.11%               6,547             5.71%
Total: Status of Budgetary
Resources                             125,769     100.00%             114,650           100.00%

Net Outlays                           105,935      84.28%             102,161            89.11%

FNS has revised the format for the Statement of Budgetary Resources for FY 2012 in accordance with
OMB Circular A-136 dated August 3, 2012. The Statement of Budgetary Resources displays the source of
all budgetary resources for the fiscal year as well as the status of those resources as of the end of the fiscal
year.

Appropriations were increased from $103,731 million in FY 2011 to $117,297 million in FY 2012. Total
budgetary resources were higher than prior year due to increase in Appropriations for the year. FNS had
$125,769 million in total budgetary resources during FY 2012, largely from appropriations received, but
also from recoveries and available unobligated balances from prior periods. In addition FNS has included
in the FY 2012 financial statements the ARRA supplemental appropriations used to stimulate the U.S.
economy. The ARRA appropriations for FY 2012 totaled $8.2 billion


At fiscal yearend 2012, most ($107,404) million or 85% of those resources were obligated, though $5,581
million or 4% remained unobligated and available, and another $12,784 million (10%) was unobligated
and not available (including apportioned unavailable Contingency Reserve funds for WIC and SNAP). In
FY 2012, Net Outlays represented 84% of Total Budgetary Resources, compared to 89% in FY 2011.

                                                 Page 34 of 59
                             FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                  NOTES TO THE FINANCIAL STATEMENTS
                                 (Amounts shown are in Millions except as noted)



                                         Food and Nutrition Service

                                CONSOLIDATED BALANCE SHEET
                            As of September 30, 2012 (CY) and 2011 (PY)
                                        (Dollars in Millions)

                                                      FY 2012                             FY 2011
                                                       (CY)                                (PY)
Assets (Note 2):
    Intragovernmental:
              Fund Balance with
              Treasury                      $     25,559                           $   17,511
              Other (Note 6)                         469                                   407
    Total Intragovernmental                       26,028                               17,918
    Accounts Receivable, net (Note 4)                356                                  324
    General Plant, Property, and
    Equipment, net (Note 5)                             1                                  1
    Other (Note 6)                                     -                                   -
Total Assets                                $     26,385                           $   18,243

Liabilities (Note 7):
    Intragovernmental:
              Accounts Payable              $          0                           $        1
              Other (Note 8)                          38                                   40
    Total Intragovernmental                           38                                   41

    Accounts Payable                                   10                                  8
    Federal Employee and Veterans
    Benefits                                           7                                   6
    Benefits Due and Payable                       3,837                                3,500
    Other (Note 8)                                 1,601                                1,637
Total Liabilities                                  5,493                                5,192

Net Position:
    Unexpended Appropriations -
    Other Funds                                   20,514                               12,775
    Cumulative Results of Operations -
    Other Funds                                      378                                 276
Total Net Position                          $     20,892                           $   13,051
Total Liabilities and Net Position          $     26,385                           $   18,243

                   The accompanying notes are an integral part of these statements.

Note: CY denotes Current Year; PY
denotes Prior Year.




                                                Page 35 of 59
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                   NOTES TO THE FINANCIAL STATEMENTS
                                 (Amounts shown are in Millions except as noted)




                                      Food and Nutrition Service
                           CONSOLIDATED STATEMENTS OF NET COST
                     For the Years Ended September 30, 2012 (CY) and 2011 (PY)
                                         (Dollars in Millions)


                                                           FY 2012                        FY 2011
                                                            (CY)                           (PY)
Program Costs:
   Strategic Goal:
       Improve the Nation's Nutrition
       and Health:
                   Gross Costs
                   (Note 10)                  $    106,653                          $ 103,242
                   Less: Earned
                   Revenue                                69                              57
                   Net Program
                   Costs                           106,584                           103,185

Net Cost of Operations                        $    106,584                          $ 103,185



                   The accompanying notes are an integral part of these statements.




                                               Page 36 of 59
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)




                                  Food and Nutrition Service
                 CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION
                         As of September 30, 2012 (CY) and 2011 (PY)
                                     (Dollars in Millions)

                                                             FY 2012                     FY 2011
                                                              (CY)                       (PY)
Cumulative Results of Operations:
Beginning Balance                                     $          276                 $      267
Beginning Balance, as adjusted                                   276                        267

Budgetary Financing Sources:
                    Appropriations Used                       99,337                      97,031
                    Transfers in/out without
                    reimbursement                              6,908                       5,407
                    Other                                          -                           -

Other Financing Sources (Non-Exchange):
                    Imputed Financing                            441                       755

Total Financing Sources                                      106,685                     103,193
Less: Net Cost of Operations                                 106,584                     103,185
Net Change                                                        102                        8

Cumulative Results of Operations                                 378                        276

Unexpended Appropriations:
Beginning Balance                                             12,775                      16,393
Beginning Balance, as adjusted:                               12,775                      16,393

Budgetary Financing Sources:
                    Appropriations
                    Received                                  110,347                     99,116
                    Appropriations
                    Transferred in/out                             2                           3
                    Other Adjustments                         (3,273)                     (5,706)
                    Appropriations Used                      (99,337)                    (97,031)
                    Total Budgetary
                    Financing Sources                          (7,739)                     (3,618)
Total Unexpended Appropriations                               20,514                      12,775

Net Position                                          $       20,892                 $    13,051



                   The accompanying notes are an integral part of these statements.




                                                Page 37 of 59
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                   NOTES TO THE FINANCIAL STATEMENTS
                                 (Amounts shown are in Millions except as noted)




                                      Food and Nutrition Services
                       CONSOLIDATED STATEMENTS OF BUDGETARY RESOURCES
                      For the years ended September 30, 2012 (CY) and 2011 (PY)

                                      (Dollars in Millions)
                                                                            FY 2012          FY 2011
                                                                              (CY)             (PY)
Budgetary Resources:
Unobligated balance, brought forward, October 1:                       $     10,726      $    14,580
Adjustments to unobligated balance brought forward,
October 1                                                                           -             -
Unobligated Balance brought forward, October 1, as
adjusted                                                                     10,726           14,580
Recoveries of prior year unpaid obligations                                        817         1,237
Other Changes in unobligated balance (+ or-)                                  (3,262)         (5,036)
Unobligated balance from prior year budget authority, net                      8,281          10,781
Appropriations (discretionary and mandatory)                                117,371          103,732
Borrowing authority (discretionary and mandatory)                                   -             -
Contract authority (discretionary and mandatory)                                    -             -
Spending Authority from offsetting collections (discretionary
and mandatory)                                                                     117          138
Total Budgetary Resources                                                   125,769          114,650

Status of Budgetary
Resources:
Obligations Incurred                                                        107,404          103,924
Unobligated balance, end of
year:                                                                               -             -
Apportioned                                                                    5,581           4,179
Exempt from apportionment                                                           -             -
Unapportioned                                                                12,784            6,547
Total unobligated balance, end of year                                       18,365           10,726
Total budgetary
resources                                                                   125,769          114,650



Change in Obligated
Balances:
Unpaid obligations, brought forward, October 1 (gross)                         6,660           6,272
Uncollected customer payments from Federal sources,
brought forward, October 1(-)                                                       -             -
Obligated balance, start of the year (net), before adjustments
(+ or -)                                                                       6,660           6,272
Adjustment to obligated balance, start of year (net) (+ or -)                      -               -
                                               Page 38 of 59
                                FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                     NOTES TO THE FINANCIAL STATEMENTS
                                   (Amounts shown are in Millions except as noted)


Obligated balance, start of the year (net), as adjusted                          6,660              6,272
Obligations incurred                                                          107,404             103,924
Outlays gross) (-)                                                           (106,052)            (102,299)
Change in uncollected customer payments from Federal
sources (+ or -)                                                                          -               -
Actual transfers, unpaid obligations (net) (+ or -)                                       -               -
Actual transfers, uncollected customer payments from
Federal sources (net) (+ or -)                                                            -               -
Recoveries of prior year unpaid obligations (-)                                  (817)              (1,237)
Obligated balance, end of
year:                                                                                         -               -
Unpaid obligations, end of year (gross)                                          7,195              6,660
Uncollected customer payments from Federal sources, end
of year                                                                               -               -
Obligated balance, end of
year (net)                                                                       7,195              6,660

Budget Authority and
Outlays, Net:
Budget Authority, gross                                                       117,487             103,870
Actual offsetting collections
(-)                                                                                  (117)            (138)
Change in uncollected customer payments from Federal
sources (+ or -)                                                                          -               -
Anticipated offsetting collections (+ or -)                                               -               -
Budget Authority, net                                                         117,370             103,732


Outlays, gross                                                                106,052             102,161
Actual offsetting collections
(-)                                                                              (117)                    -
Outlays, net                                                                  105,935                     -
Distributed offsetting
receipts (-)                                                                              -               -
Agency outlays, net                                                           105,935             102,161




                                                 Page 39 of 59
                                 FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                      NOTES TO THE FINANCIAL STATEMENTS
                                    (Amounts shown are in Millions except as noted)


                                   FOOD and NUTRITION SERVICE

 Note 1. Summary of Significant Accounting Policies

A. Basis of Presentation

   These financial statements have been prepared to report significant assets, liabilities, net cost of
   operations, changes in net position, and budgetary resources for the Food and Nutrition Service
   (FNS), as required by the Chief Financial Officers Act of 1990 as amended and OMB Circular
   A-136 dated August 3, 2012. They have been prepared from the books and records of FNS in
   accordance with the Generally Accepted Accounting Principles (GAAP) as applied to the
   Federal Government. GAAP for Federal financial reporting entities recognizes the Federal
   Accounting Standards Advisory Board (FASAB) as the standard setting body.

   FNS has revised the format for the Statement of Budgetary Resources for FY 2012 in accordance
   with OMB Circular A-136 dated August 3, 2012. Also, in accordance with the Office of
   Management and Budget and the Budget Execution of the American Recovery and Reinvestment
   Act (ARRA) of 2009 Appropriations, FNS has included in the FY 2012 financial statements the
   supplemental appropriations used to stimulate the U.S. economy. The ARRA appropriations for
   FY 2012 totaled $8.2 billion.

B. Reporting Entity

   FNS, including the Center for Nutrition Policy and Promotion (CNPP), is under the jurisdiction
   of the Under Secretary for Food and Nutrition Consumer Service of the United States
   Department of Agriculture. FNS is headed by an administrator with overall policy formulated in
   the FNS headquarters in Alexandria, Virginia, and implemented through seven regional offices
   and 21 field offices, two Supplemental Nutrition Assistance Program (SNAP) compliance
   offices, and a computer support center. State departments of education have responsibility for
   food programs serving children in schools, child care centers, and summer recreation centers.
   State departments of health, welfare, and agriculture usually have responsibility for programs
   providing SNAP benefits or supplemental foods. For the FY 2012 financial statement
   presentation, data classified as “Other” is primarily comprised of Nutrition Program
   Administration (NPA) appropriations. A detailed description of the FNS programs is contained
   in the Management Discussion & Analysis (MD&A).

C. Basis of Accounting

   FNS records transactions on an accrual accounting and a budgetary basis. Under the accrual
   method, revenues are recognized when earned and expenses are recognized when a liability is
   incurred, without regard to receipt or payment of cash. Budgetary accounting facilitates
   compliance with legal constraints and controls over the use of Federal funds. These financial
   statements include all funds for which the FNS is responsible and were prepared in accordance
   with the GAAP hierarchy of accounting principles for the Federal Government.




                                                  Page 40 of 59
                                FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                     NOTES TO THE FINANCIAL STATEMENTS
                                   (Amounts shown are in Millions except as noted)




D. Accounts Receivable

 The $356 million recognized as non-federal accounts receivable includes debts owed to FNS by
 individuals, businesses, States and local governments. The largest single component of this item
 consists of SNAP recipient claims. States establish claims against households to recover over
 issued food stamp benefits. States are responsible for pursuing collection of such claims.
 Collections, less an authorized State retention amount, are remitted to FNS. The portion of total
 net realizable receivables consisting of SNAP recipient claims is the expected amount of such
 remittance from States. The data generated by the State systems of gross account receivables has
 been determined to be unreliable. Accordingly, FNS does not know what the State gross account
 receivable is. FNS has an alternative method for acquiring reliable State receivable information.

 FNS estimates net realizable SNAP accounts receivable through a regression-based statistical model.
 This model estimates future collections by the States, which the States will remit to the Federal
 Government as of the end of the accounting period based on the actual SNAP issuance and net claims
 collections for prior years. The forecasting model draws its predictive power from the strong historical
 relationship between the level of SNAP benefit issuance and the level of recipient claims collections by
 States. Applying the model to actual data covering the periods FY 1984 through FY 2012, the model
 explains 96 percent of the variation in claims collections. Historically, collections projected by the model
 have proved to be accurate within approximately 4 percent of actual net collections. Because the
 expected cash flow from collections of such claims beyond one year is not expected to be material, FNS
 does not estimate collections after the initial year or discount the estimate produced by the statistical
 model to its present value.

 The SNAP has a system for monitoring and controlling program issuance called the Quality
 Control (QC) system. It is an ongoing, comprehensive monitoring system required by the SNAP
 Act to promote program integrity. A statistically valid sample of cases, consisting of active cases
 and “negative case actions” (terminations and denials of benefits), is chosen each month. State
 officials review the sampled case records to measure and verify the accuracy of eligibility and
 benefits determinations, made by State eligibility workers, against Program standards for the
 month under review. QC errors detected through the review process include both under issuance
 and over issuance to eligible households and issuance to households that are not eligible for
 benefits.

 Because reliable data is not available addressing gross FNS accounts receivable, the SNAP QC
 estimate of SNAP benefits over issued nationwide provide the best statistically valid estimate of
 invalid program payments. Fiscal Year 2011 QC error rates were announced in June 2012. Using
 this methodology, FNS estimates the value of benefit over issuance in Fiscal Year 2011 (the most
 recent year for which data are available) at $2.148 billion. Statement of Federal Financial
 Accounting Standards (SFFAS) #1 permits Federal entities to estimate its accounts receivable.
 The QC error rate over issuance estimate is considered the best estimate available. However,
 since this is an estimate of all SNAP overpayments, the actual State gross account receivable
 amount would be lower but the variance cannot be quantified. The amount of over issued benefits
 is included in the total program cost of the SNAP as reflected in the Statement of Net Cost.


 FNS does not receive information to calculate States’ QC liabilities for approximately 7 months after the
 end of the fiscal year; therefore, current information is not available for the FY 2012 financial statements.
                                                 Page 41 of 59
                                FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                     NOTES TO THE FINANCIAL STATEMENTS
                                   (Amounts shown are in Millions except as noted)

 For FY 2011, eight States were assessed amounts for having excessive error rates for two consecutive
 years. The aggregate total of the liability was $2 million. The eight States signed payment agreements in
 lieu of immediately repaying in cash. The agreements called for each State to invest 50 percent of its
 liability in program improvement activities. The remaining 50 percent of the liability was placed at risk
 pending future improved performance.


         The QC over Issuance error rate data for the past 3 years follows:

            Fiscal Year              Rate Amount                    Total $ (Billions)
            2011                     2.99 %                         $2.148
            2010                     3.05 %                         $ 1.977
            2009                     3.53 %                         $ 1.780


E. Grants and Program Benefits

 FNS records grant obligations based on the grant awards and SNAP benefits based on the issuance of
 benefits to AMA. Funds for FNS grant programs and SNAP electronic benefits transfer (EBT) benefits
 are provided to States through a Letter of Credit process. This process allows the grantees or the EBT
 processor to draw on established credit balances, as needed, to pay expenses associated with their grants
 or SNAP EBT transactions at retailers. This allows the U. S. Treasury to hold funds until the grantees
 need the funds to pay program expenses or until the SNAP EBT benefits are actually used. Expenses are
 recognized and obligations liquidated as grantees or EBT processors drawdown on the Letter of Credit.

F. Annual, Sick, and Other Leave

 Annual leave is accrued as it is earned and the accrual is reduced as leave is taken. Each year, the
 balance in the accrued annual leave account is adjusted to reflect current pay rates. To the extent
 that current or prior year appropriations are not available to fund annual leave earned but not
 taken, funding will be obtained from current or future financing sources. Sick leave and other
 types of non-vested leave are expensed as taken.

G. Retirement Plan

 FNS employees participate in both the Civil Service Retirement System (CSRS) and the Federal
 Employees Retirement System (FERS). FNS makes matching contributions to the CSRS total
 plan equal to 8.5 percent of pay, while contributions to the FERS total plan are 10.7 percent of
 pay. For most employees hired since December 31, 1983, FNS also contributes the employer's
 matching share for Social Security. FERS went into effect pursuant to Public Law 99-335 on
 January 1, 1987. Most employees hired after December 31, 1983, are automatically covered by
 FERS and Social Security. A primary feature of FERS is that it offers a savings plan to which
 FNS automatically contributes 1 percent of pay and matches any employee contribution up to an
 additional 4 percent of pay. FNS makes these and other contributions to employee retirement
 plans as shown in the following table:




                                                 Page 42 of 59
                                   FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                        NOTES TO THE FINANCIAL STATEMENTS
                                      (Amounts shown are in Millions except as noted)


                         FNS Retirement Contributions (In Millions)
                                                                             Amount
 Type of Contribution                                                      2012          2011

 CSRS/Transitional retirement contributions - Civil Service                $1.7          $1.9
 FERS regular contributions                                               $11.0         $10.2
 Thrift Savings Plan contributions                                         $4.1          $3.9
 TOTAL                                                                     $16.8         $16.0




 These contributions are reported as expenses in the Statement of Net Cost. FNS does not report
 CSRS and FERS assets, accumulated plan benefits, or unfunded liabilities, if any, applicable to its
 employees. Reporting such amounts is the responsibility of the Office of Personnel Management's
 Federal Retirement System.

 Statement of Federal Financial Accounting Standards No. 5, Accounting for Liabilities of the Federal
 Government, requires Federal entities to recognize an expense for pensions and other retirement benefits
 at the time the employee’s services are rendered. The purpose of recognizing this expense is to record and
 report the full cost of each entity’s operation. Corresponding revenue, Imputed Financing Sources, is
 recognized to the extent pension and other retirement benefit expenses exceed the amount paid to the
 Office of Personnel Management (OPM).

H. Recognition of Financing Sources and Appropriations Used

 FNS receives the majority of the funding it needs to support its programs through annual and
 multi-year appropriations. FNS recognizes appropriations as used at the time that program or
 administrative expenses are delivered and recognized. FNS recognizes appropriations expended
 for capitalized property or equipment as expenses when the assets are consumed in operations.
 Appropriations used are the amount of appropriations expended during the current period to fund
 FNS’ nutrition programs. This includes the NPA appropriation, which provides funds for salaries
 and administrative expenses.

 At the time grant awards are made, FNS records obligations for the full amount of expected
 expenses as unexpended obligations-unpaid (undelivered orders). Reductions in unexpended
 obligations occur as expenses are incurred by grantees. At year-end, grant obligations are accrued
 and reflected on the financial statements as accounts payable. At grant closeout, the unused
 portions of grant awards are deobligated; increasing the unobligated balances and is shown on the
 balance sheet as part of unexpended appropriations. Unobligated balances available for future
 periods are also shown as unexpended appropriations.

I. Fund Balance with Treasury Accounts

  The Fund Balance with Treasury represents the aggregate amount of funds in the FNS accounts with
  Treasury for which the agency is authorized to make expenditures and pay liabilities. The FNS Fund
  Balance with Treasury is primarily appropriated funds.


                                                    Page 43 of 59
                                FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                     NOTES TO THE FINANCIAL STATEMENTS
                                   (Amounts shown are in Millions except as noted)

J. Direct versus Reimbursable Obligations Incurred

   As of FY 2012, FNS’ direct and reimbursable obligations incurred are represented as amounts
   apportioned under category A and B. The amounts apportioned by Fiscal Quarter consist of FNS’
   category A obligations and the amounts apportioned for Special Activities consist of category B
   obligations as reported on the agency’s year-end SF133s, Report on Budget Execution and Budgetary
   Resources.


K. Allocation Transfers

   FNS is a party to allocation transfers with other federal agencies as a receiving (child) entity. Allocation
   transfers are legal delegations by one agency of its authority to obligated budget authority and outlay
   funds to another agency. A separate fund account (allocation account) is created in the U.S. Treasury as
   a subset of the parent fund account for tracking and reporting purposes. All allocation transfers of
   balances are credited to this account, and subsequent obligations and outlays incurred by the child entity
   are charged to this allocation account as they execute the delegated activity on behalf of the parent
   entity. Financial activity related to these allocation transfers is reported in the financial statements of
   the parent entity, from which the underlying legislative authority, appropriations and budget
   apportionments are derived. FNS has reported all activity relative to these allocation transfers in the FY
   2012 financial statements. FNS receives allocation transfers, as the child, from the Agricultural
   Marketing Service (AMS) and the Commodity Credit Corporation (CCC).


   Note 2. Non-Entity Assets

                                                                            FY 2012                FY 2011
   Intragovernmental:
     Fund balance with Treasury                                                      $0                  $0
     Investments                                                                      -                   -
     Accounts Receivable                                                              -                   -
     Loans Receivable                                                                 -                   -
     Other                                                                            -                   -
   Total Intragovernmental                                                            -                   -
   With The Public
     Cash and other monetary assets                                                   -                   -
     Accounts receivable                                                             34                  33
     Taxes receivable                                                                 -                   -
     Loan receivable and related foreclosed property                                  -                   -
     Inventory and related porperty                                                   -                   -
     Other                                                                            -                   -
   Total With the Public                                                             34                  33

   Total non-entity assets                                                           34                  33

   Total entity assets                                                       26,351                 18,210

   Total assets                                              $               26,385       $         18,243




                                                 Page 44 of 59
                                    FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                         NOTES TO THE FINANCIAL STATEMENTS
                                        (Amounts shown are in Millions except as noted)

FNS’ Non-Entity Assets related to Accounts Receivable consists of FNS’ Miscellaneous Receipts,
Interest, Fines & Penalties, and Miscellaneous Receipts for Cancelled Years.



Note 3. Fund Balance with Treasury

    Note 3 Fund Balance with Treasury


Fund Balances:                                                                FY 2012        FY 2011
   Trust Funds                                                           $           - $            -
   Revolving Funds                                                                   -               -
   Appropriated Funds                                                           25,560         17,511
   Other Fund Types                                                                 (1)              -
Total                                                                           25,559         17,511

Status of Fund Balance with Treasury:
Unobligated Balance:
   Available                                                                     5,581          4,179
   Unavailable                                                                  12,784          6,672
Obligated Balance not yet Disbursed                                              7,195          6,660
Non-Budgetary Fund Balance with Treasury:                                           (1)
  Clearing Account Balances                                                          -              -
Total                                                                    $      25,559 $       17,511



Note 4. Accounts Receivable, Net



                                                 Allowance for
                  Gross Accounts                 Uncollectible           Accounts
     FY 2012      Receivable                     Accounts                Receivable, Net
Intragovernmental $              -               $               -       $               -
With the Public   $          365                 $             9         $         356
  Total           $          365                 $             9         $         356


                                                 Allowance for
                  Gross Accounts                 Uncollectible           Accounts
     FY 2011      Receivable                     Accounts                Receivable, Net
Intragovernmental $              -               $             -         $               -
With the Public   $          326                 $             2         $           324
  Total           $          326                 $             2         $           324



(1) See Note 1.D. for further explanation of FNS’ accounts receivable activity with the public.


                                                      Page 45 of 59
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                   NOTES TO THE FINANCIAL STATEMENTS
                                 (Amounts shown are in Millions except as noted)




Note 5. General Property, Plant and Equipment

Property and equipment are depreciated over their useful economic lives, which average 5-10
years, using the straight-line method. For FY 2012 FNS’ capitalization threshold for property
and equipment is $25 thousand. FNS’ capitalization threshold for internal-use software is $100
thousand. FNS owns no buildings or land. FNS follows recognition and measurement criteria in
SFFAS No. 6 as amended by SFFAS No. 11 and 23, and USDA Departmental Regulation 2200-
002, dated December 24, 2003. At year end, balances for Property, Plant, and Equipment were as
follows:

  FY 2012                                                Useful                                               Net
                                                          Life                                Accumulated    Book
  Category                                              (Years)               Cost            Depreciation   Value
  Land and Land Rights                                                 $             -    $             -    $   -
  Improvements to Land                                                                -                  -           -
  Construction-in-Progress                                                            -                  -           -
  Buildings, Improvements and Renovations                                             -                  -           -
  Other Structures and Facilities                                                     -                  -           -
  Equipment                                               5-10                        5                  4           1
  Assets Under Capital Lease                                                          -                  -           -
  Leasehold Improvements                                                              -                  -           -
  Internal-Use Software                                    5                         31                 31           -
  Internal-Use Software in Development                                                -                  -           -
  Other Natural Resources                                                             -                  -           -
  Other General Property, Plant and Equipment                                         -                  -           -
    Total                                                              $             36   $             35   $       1




  FY 2011                                                Useful                                               Net
                                                          Life                                Accumulated    Book
  Category                                              (Years)               Cost            Depreciation   Value
  Land and Land Rights                                                 $             -  $               -  $     -
  Improvements to Land                                                                -                  -           -
  Construction-in-Progress                                                            -                  -           -
  Buildings, Improvements and Renovations                                             -                  -           -
  Other Structures and Facilities                                                     -                  -           -
  Equipment                                               5-10                        5                  4           1
  Assets Under Capital Lease                                                          -                  -           -
  Leasehold Improvements                                                              -                  -           -
  Internal-Use Software                                    5                         31                 31           -
  Internal-Use Software in Development                                                -                  -           -
  Other Natural Resources                                                             -                  -           -
  Other General Property, Plant and Equipment                                         -                  -           -
    Total                                                              $             36 $               35 $         1




                                                Page 46 of 59
                                     FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                           NOTES TO THE FINANCIAL STATEMENTS
                                         (Amounts shown are in Millions except as noted)

 Note 6. Other Assets

                                                                                      FY 2012                FY 2011
Intragovernmental:
   Advances to Others                                                           $               -        $                -
   Prepayments                                                                                    -                         -
   Other Assets                                                                                 469                       407
Total Intragovernmental                                                                         469                       407

With the Public:
  Advances to Others                                                                                 -                        -
  Prepayments                                                                                        -                        -
  Other Assets                                                                                       -                        -
Total With the Public                                                                                -                        -


Total Other Asssets                                                             $               469      $                407



FNS’ “Intragovernmental-Other Assets” consist of Advances to Farm Service Agency/Commodity Credit
Corporation for the purchase of commodities.


Note 7. Liabilities Not Covered by Budgetary Resources



  Intragovernmental:                                                                       FY 2012            FY 2011
     Accounts payable                                                            $              -        $                -
     Debt                                                                                          -                       -
     Other                                                                                         1                       1
  Total Intragovernmental                                                                          1                       1
  With the Public:                                                                                 -                       -
  Accounts Payable                                                                                 -                       -
  Debt held by the public                                                                          -                       -
  Federal employee and veterans' benefits                                                          7                       6
  Environmental and disposal liabilities                                                           -                       -
  Benefits due and payable                                                                         -                       -
  Other                                                                                           12                      12
  Total With the Public                                                                             19                    18


  Total liabilities not covered by budgetary resources                                              20                    19


  Total liabilities covered by budgetary resources                                            5,473                     5,173

  Total liabilities                                                             $             5,493      $              5,192




 FNS’ “Intragovernmental-Other Liabilities” consist of Unfunded FECA Liability. FNS’ “With
 the Public-Other Liabilities” consist of Custodial Liability and Unfunded Leave.


                                                         Page 47 of 59
                                     FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                          NOTES TO THE FINANCIAL STATEMENTS
                                        (Amounts shown are in Millions except as noted)

Note 8. Other Liabilities

   FY 2012                                                             Non-Current          Current        Total
   Intragovernmental:
     Contract Holdbacks                                       $                 -       $      -      $     -
     Other Accrued Liabilities                                                      -           1            1
     Employer Contributions and Payroll Taxes                                       -           2            2
     Other Post-Employment Benefits Due and Payable                                 -           -            -
     Unfunded FECA Liability                                                        -           1            1
     Other Unfunded Employment Related Liability                                    -           -            -
     Advances from Others                                                           -           1            1
     Deferred Credits                                                               -           -            -
     Liability for Deposit Funds, Clearing Accounts                                 -          (1)          (1)
     Contingent Liabilities                                                         -           -            -
     Capital Lease Liability                                                        -           -            -
     Liability for Subsidy Related to Undisbursed Loans                             -           -            -
     Accounts Payable from Canceled Appropriations                                  -           -            -
     Resources Payable to Treasury                                                  -           -            -
     Custodial Liability                                                            -          34           34
     Other Liabilities                                                              -           -            -
   Total Intragovernmental                                                          -          38           38

   With the Public:
    Contract Holdbacks                                                              -            -            -
    Other Accrued Liabilities                                                       -        1,582        1,582
    Accrued Funded Payroll and Leave                                                -            7            7
    Withholdings Payable                                                            -            -            -
    Employer Contributions and Payroll Taxes Payable                                -            -            -
    Other Post-Employment Benefits Due and Payable                                  -            -            -
    Pension Benefits Due and Payable to Beneficiaries                               -            -            -
    Benefit Premiums Payable to Carriers                                            -            -            -
    Life Insurance Benefits Due and Payable                                         -            -            -
    Unfunded Leave                                                                  -           12           12
    Other Unfunded Employment Related Liability                                     -            -            -
    Advances from Others                                                            -            -            -
    Deferred Credits                                                                -            -            -
    Liability for Deposit Funds, Clearing Accounts                                  -            -            -
    Prior Liens Outstainding or Acquired Collateral                                 -            -            -
    Contingent Liabilities                                                          -            -            -
    Capital Lease Liability                                                         -            -            -
    Accounts Payable from Canceled Appropriations                                   -            -            -
    Custodial Liability                                                             -            -            -
    Other Liabilities                                                               -            -            -
   Total With the Public                                                            -        1,601        1,601

   Total Other Liabilities                                    $                     - $      1,639 $      1,639




                                                      Page 48 of 59
                                  FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                       NOTES TO THE FINANCIAL STATEMENTS
                                     (Amounts shown are in Millions except as noted)




FY 2011                                                               Non-Current          Current        Total
Intragovernmental:
  Contract Holdbacks                                         $                -        $      -      $     -
  Other Accrued Liabilities                                                       -            2            2
  Employer Contributions and Payroll Taxes                                        -            2            2
  Other Post-Employment Benefits Due and Payable                                  -            -            -
  Unfunded FECA Liability                                                         -            1            1
  Other Unfunded Employment Related Liability                                     -            -            -
  Advances from Others                                                            -            2            2
  Deferred Credits                                                                -            -            -
  Liability for Deposit Funds, Clearing Accounts                                  -            -            -
  Contingent Liabilities                                                          -            -            -
  Capital Lease Liability                                                         -            -            -
  Liability for Subsidy Related to Undisbursed Loans                              -            -            -
  Accounts Payable from Canceled Appropriations                                   -            -            -
  Resources Payable to Treasury                                                   -            -            -
  Custodial Liability                                                             -           33           33
  Other Liabilities                                                               -            -            -
Total Intragovernmental                                                           -           40           40

With the Public:
 Contract Holdbacks                                                               -             -            -
 Other Accrued Liabilities                                                        -         1,616        1,616
 Accrued Funded Payroll and Leave                                                 -             9            9
 Withholdings Payable                                                             -             -            -
 Employer Contributions and Payroll Taxes Payable                                 -             -            -
 Other Post-Employment Benefits Due and Payable                                   -             -            -
 Pension Benefits Due and Payable to Beneficiaries                                -             -            -
 Benefit Premiums Payable to Carriers                                             -             -            -
 Life Insurance Benefits Due and Payable                                          -             -            -
 Unfunded Leave                                                                   -            12           12
 Other Unfunded Employment Related Liability                                      -             -            -
 Advances from Others                                                             -             -            -
 Deferred Credits                                                                 -             -            -
 Liability for Deposit Funds, Clearing Accounts                                   -             -            -
 Prior Liens Outstainding or Acquired Collateral                                  -             -            -
 Contingent Liabilities                                                           -             -            -
 Capital Lease Liability                                                          -             -            -
 Accounts Payable from Canceled Appropriations                                    -             -            -
 Custodial Liability                                                              -             -            -
 Other Liabilities                                                                -             -            -
Total With the Public                                                             -         1,637        1,637

Total Other Liabilities                                      $                    - $       1,677 $      1,677




                                                   Page 49 of 59
                              FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                    NOTES TO THE FINANCIAL STATEMENTS
                                   (Amounts shown are in Millions except as noted)




Note 9. Leases

Entity as Lessee:

Operating Lease (amounts shown are in thousands):

Description of Lease Arrangements: FNS’ holds one operating lease that includes office space leased from
May 1, 2009 through April 30, 2019. The cost of the lease is $620 per year until May 1, 2014. From May 1, 2014,
through April 30, 2019; the office space annual rent is reduced to $401 per year. The lease may be renewed at the option
of the Government for one 5 year term with the Government having the right to terminate, in whole or in part, at any time,
by giving at least 120 days notice in writing to the Lessor.

Future Payments Due:

                       Asset Category

Fiscal Year                Office Space

2013                       $ 620
2014                       $ 620
2015                       $ 401
2016                       $ 401
2017                       $ 401
After 5 years              $ 801

Total future lease payments $3,244




                                                 Page 50 of 59
                           FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                NOTES TO THE FINANCIAL STATEMENTS
                               (Amounts shown are in Millions except as noted)

Note 10. Intragovernmental Cost and Exchange Revenue


     Child Nutrition                                       FY 2012                   FY 2011

     Intragovernmental Costs                          $              107         $                447
     Public Costs                                     $           18,041         $             17,497
     Total Costs                                      $           18,148         $             17,944

     Intragovernmental Earned Revenue                 $                   -      $                  -
     Public Earned Revenue                            $                   -      $                  -
     Total Earned Revenue                             $                   -      $                  -

     SNAP

     Intragovernmental Costs                          $              256         $                242
     Public Costs                                     $           80,484         $             77,563
     Total Costs                                      $           80,740         $             77,805

     Intragovernmental Earned Revenue                 $                  -       $                 -
     Public Earned Revenue                            $                 67       $                56
     Total Earned Revenue                             $                 67       $                56

     Other                                                 FY 2012                   FY 2011

     Intragovernmental Costs                          $                162       $                168
     Public Costs                                     $                355       $                325
     Total Costs                                      $                517       $                493

     Intragovernmental Earned Revenue                 $                   1      $                  1
     Public Earned Revenue                            $                   -      $                  -
     Total Earned Revenue                             $                   1      $                  1


     Women, Infants & Children

     Intragovernmental Costs                          $                 -        $                  -
     Public Costs                                     $             6,981        $              6,729
     Total Costs                                      $             6,981        $              6,729

     Intragovernmental Earned Revenue                 $                    -     $                  -
     Public Earned Revenue                            $                    -     $                  -
     Total Earned Revenue                             $                    -     $                  -




                                             Page 51 of 59
                                           FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                                NOTES TO THE FINANCIAL STATEMENTS
                                               (Amounts shown are in Millions except as noted)

        Commodity Assistance Program                                          FY 2012                            FY 2011

        Intragovernmental Costs                                           $                       -          $                                   -
        Public Costs                                                      $                     267          $                                 271
        Total Costs                                                       $                     267          $                                 271

        Intragovernmental Earned Revenue                                  $                         1        $                                     -
        Public Earned Revenue                                             $                         -        $                                     -
        Total Earned Revenue                                              $                         1        $                                     -



FNS’ intragovernmental costs are exchange transactions made between FNS and another entity within the Federal
government. FNS cost with the public are exchange transactions made between FNS and a non-Federal entity. FNS’
intragovernmental exchange revenues are exchange transactions made between FNS and another entity within the Federal
government. FNS exchange revenues with the public are exchange transactions made between FNS and a non-Federal
entity.


Note 11. Program Costs By Segment
For the year ended September 30, 2012
                                                                               Women          Commodit
                                                                              Infants &           y
                                        CHILD NUTRITION       SNAP            Children        Assistanc      OTHER            Consolidated Total



   Total Gross Costs                              18,148        80,740            6,981            267            517                  106,653

   Less Earned Revenue:                                   0          67                   0              1               1                  69

   Net Goal Costs:                               18,148         80,673            6,981            266            516                  106,584


   Net Cost of Operations                                                                                                              106,584




For the year ended September 30,2011
                                                                           Women          Commodit
                                                                          Infants &           y
                                        CHILD NUTRITION       SNAP        Children        Assistanc          OTHER           Consolidated Total



   Total Gross Costs                             17,944        77,805            6,729            271            493                 103,242

   Less Earned Revenue:                               0              56               0              0               1                    57

   Net Goal Costs:                               17,944        77,749            6,729            271            492                 103,185


   Net Cost of Operations                                                                                                            103,185




                                                              Page 52 of 59
                                         FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                              NOTES TO THE FINANCIAL STATEMENTS
                                            (Amounts shown are in Millions except as noted)

Note 12. Exchange Revenues

FNS’ earned revenue from nonfederal parties consists largely of the $62 from the state option
Supplemental Nutrition Assistance Program.

On June 12, 1997, the President signed into law the Supplemental Appropriations Act, Public Law 105-
18. This law authorized the state option Supplemental Nutrition Assistance Program. In this program,
States issue SNAP benefits through the Federal government for use in a State-funded food assistance
program for legal immigrants, and childless, able-bodied adults ineligible for the Supplemental Nutrition
Assistance Program.

States operating a state option Supplemental Nutrition Assistance Program utilize FNS’ SNAP
infrastructure. That is, they utilized electronic benefits transfer (EBT) issued benefits from FNS which
are transacted at FNS authorized SNAP retailers. These benefits are subsequently redeemed through the
Federal Reserve Banking (FRB) system.

Prior to issuance, States are required to remit payment to FNS for the amount of the benefits issued as
well as reimburse FNS for the costs of redeeming benefits. During fiscal year 2012, one State participated
in this program, which generated earned revenues of $62.

Note 13. Apportionment Categories of Obligations Incurred: Direct vs. Reimbursable Obligations

    FY 2012                                    Direct                  Reimbursable            Total
Apportionment by Fiscal Quarter      $                   29,644   $                    1   $            29,645
Apportionment for Special Activities                     77,691                       68                77,759
Exempt from Apportionment                                     -                        -                     -
Total Obligations Incurred           $                  107,335   $                   69   $           107,404


    FY 2011                                    Direct                  Reimbursable            Total
Apportionment by Fiscal Quarter      $                   24,263   $                    1   $            24,264
Apportionment for Special Activities                     79,604                       56                79,660
Exempt from Apportionment                                     -                        -                     -
Total Obligations Incurred           $                  103,867   $                   57   $           103,924


Note 14.Explanation of Differences between the Statement of Budgetary Resources and the Budget of the United
States Government

Differences exist between FNS’ FY 2011 Statement of Budgetary Resources (SBR) (as provided to the
Department for consolidation purposes) and the FY 2011 actual numbers presented in the FY 2013
Budget of the United State Government (Budget). These differences are summarized below:

            Description                           Budgetary Resources                           Outlays
            2011 SBR                                 $ 114,650                                 $102,161
Less: Expired Accounts not                                   $6,681                                     $0
Included in Budget
Add: Parent Child                                                 $5                                    $5
Relationship (NIFA)

Less: Appropriation Transfer                                      $3                                   $0
not Included in Budget
Less: Differences due to                                          $1                                    $2
Rounding
                                                            Page 53 of 59
                                    FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                         NOTES TO THE FINANCIAL STATEMENTS
                                       (Amounts shown are in Millions except as noted)


Budget of the U.S.                                  $107.970                                $102,164
Government

The actual numbers for the FY President’s Budget have not yet been published as of FNS’ FY 2012
financial statements, and it is expected that the actual numbers will be published in February of the
following fiscal year and will be available on the website at www.whitehouse.gov.

Note 15. Undelivered Orders at the end of the Period

Budgetary resources obligated for undelivered orders as of September 30, 2012 and 2011 was $1.8 billion and $1.4
billion respectively.



Note 16. Incidental Custodial Collections



Revenue Activity:                                                                 FY 2012              FY 2011
  Sources of Collections:
  Miscellaneous                                                             $               11    $              6
Total Cash Collections                                                                      11                   6
Accrual Adjustments                                                                         (3)                  (1)
Total Custodial Revenue                                                                     8                    5
Disposition of Collections:
Transferred to Others:
    Treasury                                                                                 -                    -
    States and Counties                                                                      -                    -
( Increase )/Decrease in Amounts Yet to be Transferred                                      (8)                  (5)
Refunds and Other Payments                                                                   -                    -
Retained by the Reporting Entity                                                             -                    -
Net Custodial Activity                                                      $                -    $               -


FNS’ FY 2012 custodial activity represents all accounts receivable activity related to cancel year
appropriations for interest, fines & penalties assessed and collected. For example; civil money penalties,
interest, retailer and wholesaler fines and penalties. (See Note 1D., “Accounts Receivable”, for further
disclosures on FNS’ collection activities). FNS transfers these types of collections to the Department of
Treasury. FNS’ custodial collection activities are considered immaterial and incidental to the mission of
FNS.




                                                         Page 54 of 59
                               FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                    NOTES TO THE FINANCIAL STATEMENTS
                                  (Amounts shown are in Millions except as noted)

Note 17. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the Statement of
Financing)

Resources Used to Finance Activities:                                                FY 2012            FY2011

Budgetary Resources Obligated

    Obligations Incurred                                                             $ 107,404          $ 103,924
    Less: Spending authority from offsetting collections and recoveries                      933              1,375
                                                                                      ------------      -------------
    Obligations net of offsetting collections and recoveries                            106,470           102,549
    Less: Distributed Offsetting Receipts                                                     -                -
                                                                                      ------------      -----------
    Net Obligations                                                                    106,470           102,549
                                                                                       ------------     -----------
    Other Resources
    Donations and forfeitures of property                                                    -               -
    Transfers in (out) without reimbursement                                                 -              -
    Imputed financing from costs absorbed by others                                         440             755
    Other                                                                                   -               -
                                                                                       ------------      -----------
    Net other resources used to finance activities                                          440             755

                                                                                         FY 2012         FY 2011


    Total resources used to finance activities                                             106,911       103,304

   Resources Used to Finance Items not Part of the Net Cost of Operations:
   Change in budgetary resources obligated for goods, services and benefits
   ordered but not yet provided                                                               (296)       (111)
   Resources that fund expenses recognized in prior periods                                     -             -
   Budgetary offsetting collections and receipts that do not
   affect net cost of operations
      Credit Program collections which increases liabilities for
      loan guarantees or allowances for subsidy                                                 -               -
      Change in Unfilled Customer Orders                                                         (1)             2
      Decrease in exchange revenue receivable from the public                                    -              -
      Other                                                                                      -              -
   Resources that finance the acquisition of assets                                              -              -
   Other resources or adjustments to net obligated resources that
   do not affect net cost of operations                                                          -               -
                                                                                          -----------    ------------
    Total resources used to finance items not part of the net cost
    of operations                                                                             (297)       (109)
                                                                                          -----------    -----------
        -

    Total resources used to finance the net cost of operations                             106,614       103,195
    Components of the Net Cost of Operations that will not require or
                                                 Page 55 of 59
                          FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                               NOTES TO THE FINANCIAL STATEMENTS
                             (Amounts shown are in Millions except as noted)

Generate Resources in the Current Period:
Components Requiring or Generating Resources in Future Periods:
   Increase in annual leave liability                                                   -               -
   Increase in environmental and disposal liability                                    -                 -
   Upward/Downward re-estimates of credit subsidy expense                                -               -
   Increase in exchange revenue receivable from the public                             -                -
   Other                                                                             (36)           (13)
                                                                                 ----------     ----------
  Total components of Net Cost of Operations that will require or
  generate resources in future periods                                               (36)            (13)
Components not Requiring or Generating Resources:
  Depreciation and amortization                                                            1           1
  Revaluation of assets or liabilities                                                 -               -
  Other Components not Requiring or Generating Resources:
     Bad Debt Expense                                                                  9               2
     Cost of Goods Sold                                                                -               -
     Other                                                                            (4)              -
                                                                                 -----------    ---------
-
    Total components of Net Cost of Operations that will not require
    or generate resources                                                              6              3
                                                                                  -----------    ---------
    -

    Total components of Net Cost of Operations that will not require
    or generate resources in the current period                                      (30)            (10)
                                                                                  ----------     ---------
    -

    Net Cost of Operations                                                      $ 106,584 $103,185
                                                                                  ====== ======




                                           Page 56 of 59
                                  FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                       NOTES TO THE FINANCIAL STATEMENTS
                                      (Amounts shown are in Millions except as noted)


                          FOOD AND NUTRITION SERVICE
               REQUIRED SUPPLEMENTARY STEWARDHIP INFORMATION
                           STEWARDSHIP INVESTMENTS
                            (Amounts shown are in millions)


Human Capital

1. A. Supplemental Nutrition Assistance Program (SNAP).

     B. Program Expense                              2012         2011

        1. Employment and Training                    $53         $45

FNS’ human capital consists of employment and training (E&T) for the Supplemental Nutrition Assistance Program.
The E&T program requires recipients of SNAP benefits to participate in an employment and training program as a
condition to SNAP eligibility.

Outcome data for the E&T program is only available through the third quarter. As of this period, FNS’ E&T
program has placed 701,721 work registrants subject to the 3 - month SNAP participant limit and 1,670,958 work
registrants not subject to the limit in either job-search, job-training, job-workfare, education, or work experience.


Nonfederal Physical Property

1.    A. Supplemental Nutrition Assistance Program

      B. Program Expense                            2012         2011

          1. ADP Equipment & Systems                 $38         $40


FNS’ nonfederal physical property consists of computer systems and other equipment obtained by the State and
local governments for the purpose of administering the Supplemental Nutrition Assistance Program. The total SNAP
Expense for ADP Equipment & Systems has been reported as of the date of FNS’ financial statements.


2.    A. Special Supplemental Nutrition Program for Women, Infants and Children (WIC)

      B. Program Expense                            2012         2011

          1. ADP Equipment & Systems                 $13         $16


FNS’ nonfederal physical property also consists of computer systems and other equipment obtained by the State and
local governments for the purpose of administering the Special Supplemental Nutrition Program for Women, Infants
and Children.




      AUDIT REPORT-27401-0001-21 DISCUSSION DRAFT ONLY – NOT FOR RELEASE
                                       57
                             FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                  NOTES TO THE FINANCIAL STATEMENTS
                                (Amounts shown are in Millions except as noted)



                                      Food and Nutrition Service
                                         Schedule of Spending
                                For the year ended September 30, 2012

                          OTHER ACCOMPANYING INFORMATION

                                                                                     Non Budgetary
                                                                                       Credit Reform
                                                               Budgetary                Financing Accounts
What Money is Available to Spend?
Total Resources                                                   $               125,695                    -
Less Amount Available but Not Agreed to be Spent                                    5,581                    -
Less Amount Not Available to be Spent                                              12,710                    -
Total Amounts Agreed to be Spent                                                  107,404                    -

How was the Money Spent?

Assist Rural Communities to Create Prosperity so They Are
Self-Sustaining, Repopulating, and Economically Thriving:

10 – Personnel Compensation and Benefits                                                -                    -
20 – Contractual Services and Supplies                                                  -                    -
30 – Acquisition of Assets                                                              -                    -
40 – Grants and Fixed Charges                                                           -                    -
90 - Other                                                                              -                    -
Total                                                                                   -                    -

Ensure Our National Forests and Private Working Lands
Are Conserved, Restored, and Made More Resilient to
Climate Change, While Enhancing Our Water Resources:

10 – Personnel Compensation and Benefits                                                -                    -
20 – Contractual Services and Supplies                                                  -                    -
30 – Acquisition of Assets                                                              -                    -
40 – Grants and Fixed Charges                                                           -                    -
90 - Other                                                                              -                    -
Total                                                                                   -                    -

Help America Promote Agricultural Production and
Biotechnology Exports as America Works to Increase Food
Security

10 – Personnel Compensation and Benefits                                                                     -
20 – Contractual Services and Supplies                                                  -                    -
30 – Acquisition of Assets                                                              -                    -
40 – Grants and Fixed Charges                                                           -                    -
90 - Other                                                                              -                    -


   AUDIT REPORT-27401-0001-21 DISCUSSION DRAFT ONLY – NOT FOR RELEASE
                                    58
                             FINANCIAL REPORT – U. S. D. A. – F. N. S. – FY 2012
                                  NOTES TO THE FINANCIAL STATEMENTS
                                (Amounts shown are in Millions except as noted)


Total                                                                                   -   -

Ensure that All of America’s Children Have Access to Safe,
Nutritious, and Balanced Meals:

10 – Personnel Compensation and Benefits                                              154   -
20 – Contractual Services and Supplies                                              1,475   -
30 – Acquisition of Assets                                                              4   -
40 – Grants and Fixed Charges                                                     104,419   -
90 - Other                                                                              -   -
Total                                                                             106,052   -

Total Spending                                                                    106,052   -

Unpaid Obligations, end of year (gross)                                             7,195   -
Unpaid Obligations, brought forward, October 1 (gross)                              6,660   -
Recoveries of prior year unpaid obligations                                           817   -
Amounts Remaining to be Spent                                                       1,352   -


Total Amounts Agreed to be Spent                                                  107,404   -




   AUDIT REPORT-27401-0001-21 DISCUSSION DRAFT ONLY – NOT FOR RELEASE
                                    59
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm

How To Report Suspected Wrongdoing in USDA Programs
Fraud, Waste, and Abuse
Email: usda.hotline@oig.usda.gov
Phone: 800-424-9121 Fax: 202-690-2474
Bribes or Gratuities:
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual’s income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
